<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        THURSDAY, MARCH 13, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Feinstein, Pryor, Reed, Collins, 
Blunt, Moran, and Boozman.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. ANTHONY FOXX, SECRETARY


               opening statement of senator patty murray


    Senator Murray. Good morning. This subcommittee will come 
to order. I want to welcome Secretary Anthony Foxx. He is here 
today in his first appearance before our subcommittee to talk 
about his Department's budget request and our Nation's 
transportation policy. So thank you very much for being here.
    Many Americans are still struggling in what remains a tough 
economy, and we need to continue to focus on investments that 
create jobs and opportunity as well as make transportation safe 
and reliable. So I look forward today to a discussion about how 
this budget supports our communities and economy and tackles 
our transportation infrastructure deficit fairly and 
responsibly.
    It was only 2 months ago that Congress passed legislation 
to fund the Government for the rest of fiscal year 2014, and 
that achievement came after several years of gridlock, and was 
made possible because members on both sides of the aisle 
recognized the need for solutions rather than continued 
disruption and crisis.
    At the end of last year, I worked with Chairman Ryan to 
reach a 2-year bipartisan budget deal. Our budget rolled back 
some of the automatic across-the-board cuts to priorities like 
education, infrastructure, and research. It prevented another 
Government shutdown and restored some certainty and stability 
to families and communities, and did it in a balanced way 
without relying on spending cuts alone. The agreement made it 
possible for the Appropriations Committee to not only complete 
its work and send a bill to the President and funds the 
Government for the rest of 2014, but it also allowed us to get 
started on our work for this year, 2015.
    The modest increases in the omnibus mean the Federal 
Aviation Administration (FAA) can replace retiring air traffic 
controllers, avoiding the sequester-driven furloughs that 
disrupted air travel a year ago. It means no interruption in 
transit projects now under construction across the Nation from 
Texas to my home State of Washington and to your hometown, Mr. 
Secretary, Charlotte. It also means there will be more safety 
inspectors overseeing the safe shipment of millions of tons of 
hazardous materials that move through our cities and towns each 
year.
    I am pleased the budget deal restored a degree of stability 
to the Department's core functions; however, there is still 
more to be done. Almost half of the funding available to this 
subcommittee comes from the Highway Trust Fund, which once 
again is at risk of insolvency. Beginning this summer, the Fund 
is expected to face shortfalls that would force the Department 
to begin slowing payments, putting projects at risk and 
potentially harming State and local economies. If Congress does 
not act within a year, these shortfalls are projected to 
increase dramatically, making it impossible for State and local 
governments to maintain the road and transit networks that 
commuters and businesses depend on.
    That is why I was glad to see the President proposed paying 
for new investments in transportation infrastructure with 
revenue raised through reforming the bloated and loophole-
ridden corporate tax code. House Ways and Means Committee 
Chairman Dave Camp included a similar proposal in the 
Republican tax reform plan he released last week. Now that both 
Democrats and Republicans have proposed using revenue from the 
corporate tax code to invest in our transportation system and 
to make sure the Highway Trust Fund remains solvent so States 
and communities can continue work on infrastructure projects 
vital to economic growth, I am really hopeful that we can all 
work together to get this done in the coming months, because 
helping to create jobs here at home rather than letting 
corporations send jobs overseas to avoid paying taxes is good 
for our budget, it is good for our economy, and it makes sense.
    The President's proposal focuses on prudent investments 
beginning with fixing our existing infrastructure. In a Nation 
where one of nine bridges today is rated deficient and transit 
systems have an estimated maintenance backlog of $86 billion, 
the emphasis on bringing the infrastructure we currently have 
into good state of repair makes sense. So does the Department's 
focus on stronger investment in freight networks that make it 
cheaper and faster to move goods to market and improves access 
to jobs and education so we increase opportunities for all 
Americans. These are priorities that will help our economy as 
well as our communities compete in the global marketplace.
    This subcommittee has long supported investments that 
tackle the complex transportation needs of our communities 
through the Transportation Investment Generating Economic 
Recovery (TIGER) program, which I created and first funded in 
the Recovery Act. Since then, TIGER has now awarded $3.6 
billion to support innovative, multimodal projects in every 
State. Demand for these funds is intense. Applications always 
exceed the amount of funding available, sometimes as much as 
20-to-1, which is why I appreciate the President's proposal 
would more than double the size of the program and fund the 
program through the Highway Trust Fund.
    I know firsthand the kind of difference TIGER has made for 
my home State. Back in 2010, a bridge on the main access road 
to commerce for a community in South Seattle was crumbling and 
had to be closed. The local business owners and residents of 
that community that I spoke with said the bridge which used to 
carry as many as 20,000 vehicles a day was their lifeline. In 
2010, the South Park Bridge won a TIGER grant that provided the 
last critical piece of financing they needed to help rebuild 
that bridge. And the project itself created badly needed jobs 
that helped the entire community weather some pretty tough 
economic times.
    This May, in a few short months, a new bridge is going to 
open providing a strong foundation that will serve that 
community for generations to come. And that is just one example 
of what can happen when we invest in our communities and in our 
infrastructure.
    But even though I am glad the Department's budget request 
includes good investments in our transportation programs, we 
also need the Department to be a leader in innovation and 
safety. Unfortunately there are times when the Department is 
not always living up to that expectation and finds itself 
reacting.
    In 2011, the American Association of Railroads petitioned 
for an improved tank car design to transport hazardous 
materials, like ethanol and crude oil. This was done after a 
comprehensive review of design features to improve puncture 
resistance and the safety of these shipments by rail. It was 
not until 2 years later following the catastrophic accident in 
Lac-Megantic that the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) finally initiated regulatory action.
    As we know, the regulatory process is not a quick one. From 
what I understand, the best case estimate to complete the new 
tank car component of the rule, not the entire rule, is by the 
first quarter of 2015. Whether it is ethanol or crude oil, we 
need to be more nimble and responsive to our changing 
transportation system to ensure we have effective standards for 
businesses to keep everyone safe.
    We also need the Department of Transportation (DOT) to be a 
leader when it comes to supporting aviation. For the past 6 
years, this subcommittee has been making significant 
investments in the Next Generation Air Transportation System 
(NextGen), which is the Federal Aviation Administration's 
(FAA's) effort to modernize our air traffic control system. But 
I continue to hear concerns that the FAA has not been able to 
translate those investments into real changes for air 
transportation, and it is still not clear when these billions 
of dollars will mean shorter flights, and lower fuel 
consumption, and lower emissions.
    There is also a lot of interest in the development of 
unmanned aerial systems, and the Federal Aviation 
Administration is working on a plan for integrating these 
systems into our national air space. According to the FAA, we 
may see draft regulations on small, unmanned systems by the end 
of this year. I know the Department will always put safety 
first, but I urge you to make progress in this arena.
    Mr. Secretary, I know you appreciate these challenges, and 
I look forward to working with you and hope you will use your 
position at the head of this Department to expedite progress on 
these important issues and on the critical issues that are 
developing in transportation.
    And with that, let me turn it over to my partner and 
ranking member, Senator Collins, for her opening remarks.


                 statement of senator susan m. collins


    Senator Collins. Thank you very much, Madam Chairman. 
Welcome, Secretary Foxx. It is great to see you again. I 
believe this is your first appearance before our subcommittee, 
so we look forward to working with you.
    Madam Chairman, I want to start by commending your 
leadership along with that of Chairman Mikulski and Ranking 
Member Shelby. This is the first of several hearings for this 
subcommittee as we start the fiscal year 2015 appropriations 
process. Your work, Senator Murray, in negotiating the 2-year 
budget agreement with Congressman Ryan provides the framework 
to allow this committee to return to regular order in fiscal 
year 2015 to mark up each of the individual 12 appropriations 
bills, and to have an open and transparent debate on the merits 
of each bill on the Senate floor. And I commend you for your 
leadership and hard work.
    Mr. Secretary, the administration is proposing nearly $91 
billion for the Department of Transportation. Included in your 
proposed is a 4-year $302 billion reauthorization of the 
Surface Transportation Program paid for by $150 billion in 
corporate tax reforms and the existing gas tax collections. 
That is a very controversial proposal. I am disappointed that 
the President's budget once again contains what I believe to be 
unrealistic assumptions about solving the Highway Trust Fund 
crisis. Although I, too, believe that we need to reform our tax 
code, I do not think that it is realistic to assume that we 
will be able to do so this year. And a one-time funding source 
does not in any way solve the problem.
    More important, this proposal does not represent a long-
term solution to the funding woes of the Highway Trust Fund, 
and once again kicks the can down the road. The Department has 
said, as the chairman pointed out, that the Highway Trust Fund 
may face a shortfall as early as August, and it would not be 
able to pay States and local governments what they are owed on 
time. As a former mayor, you must be very concerned about what 
the implications would be at the State and local level.
    Similar to the fiscal crisis we faced just last year, this 
infrastructure crisis could be devastating to our economy and 
result in significant job losses during the prime construction 
season. In fact, I recently met with Maine's Commissioner of 
Transportation who informed me that approximately 160 federally 
assisted projects totaling $210 million would have to be put on 
hold until funding was restored.
    While I share the administration's views on the importance 
of investing in our transportation needs, responsible budgeting 
is equally important. The math here is very clear: the Highway 
Trust Fund revenues and balances over the next 4 years only 
support approximately $156 billion in spending. Congress and 
this administration must work together to come up with a 
realistic plan for investing in our transportation system while 
at the same time reducing our unsustainable deficit, our debt, 
which now exceeds $17 trillion.
    That said, I do appreciate the reform proposals that are 
designed to improve project delivery and reduce red tape. And 
if we do that, there will be savings in that that can accrue. 
Not sufficient savings, but it will be a help. At a time when 
too many of our roadways and bridges are crumbling and require 
billions of dollars in investment, we should do what we can to 
increase the efficiency and efficacy of our Federal programs.
    I am also interested in your Critical Immediate Investments 
Program. It will provide dedicated funding to support the 
replacement of more of our Nation's structurally deficient 
bridges and make much needed repairs to existing roadways. 
According to the Federal Highway Administration (FHWA), 10 
percent of our Nation's bridges are structurally deficient. In 
my State, the number is even higher: 15 percent of bridges are 
structurally deficient.
    Generous funding, as the chairman pointed out, is requested 
for the TIGER program, a program that I strongly support 
because it has demonstrated the flexibility to fund important 
transportation projects that support economic growth both 
nationally, regionally, and locally. It has been essential to 
many bridge and port projects in my home State that otherwise 
could not have been built.
    In addition, as the chairman pointed out, the budget 
request makes investments in technological improvements, 
particularly for the FAA, as it continues to modernize the air 
traffic control system through NextGen. I will say, however, 
that we have discussed that project every single year that I 
have been on the committee, and it has been plagued by delays 
and some cost overruns that are of concern to me.
    Rural States like Maine cannot be forgotten as we discuss 
our transportation needs. They benefit from services that 
connect rural America with larger transportation networks. 
Again, that directly translates into jobs and economic growth. 
There are many important programs that support infrastructure 
at our Nation's airports, including the Airports Improvement 
Program, the Essential Air Service, and Small Community Air 
Service Development Program.
    I am also encouraged by the Department's acknowledgement of 
the need to ensure the safe transportation of crude oil and 
other energy products across North America. The horrific train 
derailment that occurred in Quebec, Canada, just 30 miles from 
the Maine border last July has highlighted the need for rail 
safety improvements. I am proud of the fact that more than 30 
firefighters came from Maine to answer our Canadian neighbors' 
call for help, and that highlights also the importance of a 
coordinated emergency response.
    There has been tremendous growth in the transportation of 
crude oil by rail from North Dakota. That is a huge energy 
boost for our country, but it also potentially represents a new 
hazard for the communities through which these rail cars 
travel. I am still reviewing your specific proposal to create a 
new $40 million Safe Transportation Energy Products Fund, but I 
think we need to expedite the rulemaking to establish safer oil 
tank car standards.
    There are many other issues I will bring up during the 
questions today, but I look forward to our conversation. Thank 
you, Madam Chair.
    Senator Murray. Thank you. Mr. Secretary, before we move to 
your opening statement and questions from all of us, we have a 
number of members who would like to do short opening 
statements, and I will do those in order of appearance back and 
forth, and begin with Senator Reed.
    Senator Reed. No, thank you.
    Senator Murray. Senator Moran.
    Senator Moran. No, thank you.
    Senator Murray. Senator Feinstein.
    Senator Feinstein. No.
    Senator Murray. Senator Blunt.
    Senator Blunt. I will submit----
    Senator Murray. Okay. Senator Pryor.
    Senator Pryor. No, thank you.
    Senator Murray. Senator Boozman.
    Senator Boozman. No.
    Senator Murray. We have an efficient----
    Senator Collins. What a cooperative group.
    Senator Murray. I do not know how to take that, but----
    Senator Collins. Strong leadership by the chairman, I 
think.
    Senator Murray. With that, Secretary Foxx, we'll turn it 
over to you for opening statement.


                 summary statement of hon. anthony foxx


    Secretary Foxx. Thank you, Madam Chairwoman, and to the 
committee and also to Ranking Member Collins. I want to thank 
all of you for having me and for your continuing vigilance on 
not only the subjects that we will talk about today, but on all 
of the subjects before the committee.
    Today I am here to discuss the President's 2015 plan for 
our Nation's transportation system. While I come here as the 
U.S. Secretary of Transportation, our Department supports all 
50 U.S. States and territories, as well as local and regional 
project sponsors. Today I also speak for them.
    What concerns our Department and our stakeholders is what 
concerns many of you and has been alluded to in the opening 
statements of both the chair as well as the ranking member. 
Year after year we have shored up the Highway Trust Fund with 
short-term measures, and it is now running out again, perhaps 
as early as August. On top of that, our last surface 
transportation funding bill was a 2-year bill rather than a 6-
year bill like the ones that came before it.
    When I speak to folks on the ground, like mayors and 
Governors, heads of DOTs in all of your States, they tell me 
that this funding and policy uncertainty is creating an 
invisible crisis in our country, a crisis in which they are not 
willing or able to put new projects on the books or even 
reinvest in maintaining older projects because they do not know 
if they can fund them, which means they are leaving our already 
crumbling infrastructure to crumble further.
    To put a finer point on it, since 2009, our surface 
transportation programs have been operating under short-term 
extensions nine times, including a 2-day lapse in March 2010. 
And there have been 18 continuing resolutions, including 8 in 
fiscal year 2011 alone. Overall, our Nation now has a massive 
infrastructure deficit, including 100,000 bridges old enough 
for Medicare, and billions of dollars of backlog, maintenance, 
and new capacity needs in both the highway system and our 
transit system. And according to the World Economic Forum, our 
infrastructure quality is falling into such a state of 
disrepair that we now rank 25th in the world.
    To address these challenges, we must confront two 
realities. Number one, that we are underinvesting in our 
Nation's infrastructure, and number two, that our system is 
underperforming from an efficiency standpoint. If we attack 
both of those issues, I believe our Nation will be on a better 
course to address our infrastructure deficit.
    If you could imagine America's infrastructure as a house, 
we have had years of termites in the basement. In effect, we 
are spending money by allowing the cost of those repairs to 
rise as the damage becomes more extensive. The most fiscally 
responsible path is to invest significantly more in our system 
to spur jobs today and allow us to meet the growing new 
capacity needs and deferred maintenance challenges that we 
have. By working together, I am convinced that we can change 
these trends for the better.
    Last week and the week before, President Obama talked about 
his vision for a 4-year $302 billion transportation plan that 
will put us on the path to solving these problems. To fill the 
hole in the Highway Trust Fund, the plan draws on savings from 
pro-growth business tax reform, a bipartisan pay-for. And I 
should point out that Chairman Camp has released his own 
variation of this proposal, which suggests to me there's an 
opportunity to get something done. In fact, we in the 
administration have also pledged to send forward a bill to 
Congress that will provide program by program details behind 
every budget request in this plan.
    To the issue of underperformance in terms of efficiency, we 
can and should continue to work to streamline and cut red tape, 
so our proposal also aims to help us in that regard as well. 
Our proposal helps us double down on our efforts to increase 
the value proposition for transportation dollars spent, and we 
can do so without compromising project integrity or the 
environment. That is why major new initiatives in the 
President's proposal place a premium on streamlining our 
interagency permitting reviews, for example, and on using 
incentives to catalyze process innovation at the State and 
local level.
    I do not have to tell you that the American people need and 
deserve funding certainty so they and their communities can 
plan. I believe that working together we can accomplish great 
things, and I look forward to working with all of you. I am 
happy to answer your questions.
    [The statement follows:]
                   Prepared Statement of Anthony Foxx
    Chairman Murray, Ranking Member Collins, and members of the 
subcommittee thank you for the opportunity to meet with you today to 
discuss the President's fiscal year 2015 budget request for the U.S. 
Department of Transportation. I know all of you share President Obama's 
and my commitment to ensuring our Nation's transportation networks 
continue to provide all Americans with safe and reliable transportation 
service.
    America's transportation infrastructure is a national asset we all 
share--and it needs our attention. For many years our leaders have 
invested in providing, maintaining, and improving transportation 
networks to meet the needs of our citizens and businesses. It is 
because of these investments that we have reliable transportation 
today. But increasingly, our investments are not keeping pace with the 
needs. Today, we have 100,000 bridges in our country that are old 
enough for Medicare and a Highway Trust Fund that is running dry.
    As we consider the state of transportation today, we have two 
important responsibilities we must address. First, we have to look 
forward to take charge of transportation decisions that impact our 
country's future. As America continues to grow, we need to ensure that 
transportation choices are poised to meet the new demands that result 
from expanding regions and emerging cities. This is about so much more 
than just making traveling easier. It is about providing access to new 
job and educational opportunities that open new doors and provide a 
better quality of life for our citizens. It is about supporting a 
growing business network that helps keep local economies strong and 
provides consumers with expanded choices. It's about making our cities 
and communities places where we all want to be--with easy access to the 
day-to-day services we all need as well as providing for leisure and 
other enriching experiences that we all value.
    At the same time, we need to acknowledge that in far too many 
cases, our current transportation systems have not been maintained to 
optimal standards and as a result, are not operating in a state of good 
repair. This neglect is costly and results in inefficiencies and 
inconvenience to travelers every day. Based on the Department's 
Conditions and Performance Report, for transit alone the maintenance 
backlog for transit systems in our country totals $86 billion and that 
is growing by an additional $2.5 billion each year. It is important to 
note that these aren't just Federal dollars, but, nonetheless, our 
metrics demonstrate a huge gap between needs and current investment 
levels.
the president's surface transportation program reauthorization proposal
    But it doesn't have to be this way. The President has laid out his 
vision for a 4-year $302 billion surface transportation reauthorization 
proposal to modernize the country's infrastructure, address our 
infrastructure deficit, and better connect people to their jobs, 
schools, and communities every day.
    There are several key elements of this proposal that separate it 
from its predecessors that I would like to highlight today. First, the 
President's proposal recognizes that moving freight efficiently is 
critical to our economy and our transportation systems. The budget 
requests $10 billion over 4 years in dedicated funding to invest in 
freight networks that will improve the movement of goods. These funds 
will be used to foster economic growth, advance the President's export 
initiative, and improve the efficiency and reliability of freight 
movement nationwide. We will reach out to our industry partners such as 
shippers, truck and rail representatives and associated labor 
organizations, to ensure that they will play a meaningful role in 
crafting investment decisions in partnership with State and local 
officials.
    We recognize that improving project delivery and streamlining the 
Federal infrastructure permitting processes can yield tangible benefits 
for Americans while protecting communities and the environment. The 
President's surface transportation reauthorization plan will increase 
transparency and accountability while at the same time improving 
interagency coordination. To advance this effort, the proposal includes 
$8 million to establish a new interagency permitting acceleration team 
to be administratively housed within the Office of the Secretary. This 
team will work toward the President's goal of reducing the current 
permitting processes time by half so that the benefits of new projects 
will bring can be realized more quickly.
    This surface transportation reauthorization plan acknowledges the 
important role transportation plays in creating ladders of opportunity 
for our citizens by including $2.2 billion over 4 years for a new Rapid 
Growth Area Transit Program that will link people to job and 
educational opportunities in fast growing areas. In addition, $120 
million is requested over 4 years for a workforce development program 
that focuses on improving the size, diversity and skill of our Nation's 
construction workforce through partnerships with the Department of 
Labor and the States.
    The President's surface transportation reauthorization plan also 
includes a new $2 billion competitive grant program that will encourage 
innovative solutions to meet our most pressing transportation 
challenges. State and local partners will be evaluated on their 
willingness to commit to performance improvements in key areas such as 
safety and congestion management.
    The President's vision includes a major emphasis on preserving and 
improving today's highway and transit systems. Known in the proposal as 
``fix-it first,'' the reauthorization proposal encourages government 
and other transportation stakeholders to make optimal use of system 
capacity; to implement sound asset management principles, and to focus 
on achieving and maintaining a state of good repair for transportation 
assets.
    Together, these areas of emphasis will provide a strong foundation 
from which to manage our surface transportation programs over the next 
4 years. We are hard at work completing the details of this plan, and 
will soon be proposing formal legislation for your consideration.
                            funding overview
    Moving forward on these objectives will require funding increases 
in the Department's current surface transportation programs over the 
next 4 years. To accomplish this, a total of $72 billion--with nearly 
$18 billion in fiscal year 2015 is requested for transit programs to 
focus on the transportation needs of growing suburbs and the deferred 
maintenance of transportation assets in our cities. The budget request 
also includes $500 million for a new Rapid Growth Area Transit Program 
beginning in fiscal year 2015 to help communities experiencing fast-
growing populations meet new transportation demands.
    Funding for highway programs would increase to $199 billion over 4 
years with $49 billion requested for fiscal year 2015. Included within 
this total is funding for a new Freight Program and for highway-
specific ``fix-it first'' initiatives to focus investments on the 
critical safety and capital needs of our existing bridges and roadways. 
In addition, more than a billion dollars is provided to support 
construction and repair of significant transportation infrastructure 
assets on Federal and Tribal lands. The President's fiscal year 2015 
request continues the progress achieved to date on alternative 
financing approaches by providing $1 billion to the Transportation 
Infrastructure Finance and Innovation Act Program.
    The President's proposal includes funding for rail within the 
surface transportation reauthorization framework and requests $19 
billion over 4 years to fund rail programs. For fiscal year 2015, $5 
billion is requested to establish a National High-Performance Rail 
System to support current operations and to improve the rail system of 
the future. This bulk of this funding would be divided into two 
programs--one focused on current passenger rail service initiatives and 
the other specifically focused on service improvements.
    The President's proposal continues the Department's commitment to 
safety by requesting nearly $7 billion for highway safety modes over 4 
years. For fiscal year 2015, $669 million is requested to support 
Federal Motor Carrier Safety Administration initiatives to ensure the 
safe operation of trucks and buses. Another $851 million will support 
the ongoing efforts of the National Highway Traffic Safety 
Administration to focus on emerging issues with vehicle safety and to 
address new challenges posed by new technologies.
    Finally, the President's surface transportation reauthorization 
proposal includes $5 billion over 4 years to fund the competitive 
Transportation Investment Generating Economic Recovery (TIGER) grant 
program. TIGER grants provide funding for infrastructure projects of 
national and regional significance and have been an effective 
infrastructure improvement mechanism for the past 5 years. The fiscal 
year 2015 budget requests $1.25 billion to continue the TIGER grants 
program.
                        paying for the proposal
    In developing the President's surface transportation 
reauthorization proposal, we are mindful of the important funding 
commitment this will require. That is why the President has devoted 
$150 billion from transition revenue generated from pro-growth tax 
reform to supplement current revenues from the gas tax. When combined, 
these resources will help finance long-term, critical investments in 
our Nation's infrastructure. This proposal provides sufficient funds to 
ensure the solvency of the Trust Fund during the proposed 
reauthorization period, to prevent the cash shortfall that is projected 
to occur later this year. An additional $87 billion will fund new 
investments in the surface transportation reauthorization.
                 other departmental program highlights
    While much of this discussion has focused on surface transportation 
needs, the President's fiscal year 2015 budget request also funds 
important resource needs for our other critical Transportation 
programs.
    The President requests $15.4 billion in fiscal year 2015 to 
continue the Federal Aviation Administration's (FAA's) management of 
the National Airspace System. This request supports FAA's current 
programs in the areas of air traffic controller and safety staffing, 
research and development and capital investment. It also advances the 
modernization of our air traffic system through NextGen--the Next 
Generation Air Transportation System, which encompasses the deployment 
of new systems, technologies, and procedures that will help reduce 
delays, expand air traffic system capacity, and mitigate aviation's 
impact on the environment, while ensuring the highest levels of safety. 
The President's plan includes nearly $1 billion in NextGen related 
initiatives.
    The President's budget request also acknowledges our 
responsibilities to ensure the safe transportation of energy products 
as they travel by rail or truck through our communities. Recognizing 
that effective solutions to these transportation concerns require a 
multimodal focus, the budget also requests $40 million to support the 
establishment of a new Safe Transportation of Oil Fund to support 
multimodal prevention and response activities associated with the 
increased safety issues surrounding the transport of crude oil. This 
fund would be housed in the Office of the Secretary and would be 
available to support initiatives in the Pipeline and Hazardous 
Materials Safety Administration, the Federal Railroad Administration, 
and the Federal Motor Carrier Safety Administration.
    Thank you again for the opportunity to share the President's budget 
plan for transportation with you today. I look forward to working with 
all of you.

                             VEHICLE SAFETY

    Senator Murray. Thank you very much. We will do 5-minute 
rounds for questions so that we can get to all of our members 
who are here today.
    But let me start by asking you about the General Motors 
(GM) recall. As we know, they last month recalled 1.6 million 
vehicles for faulty ignitions. It has been linked to 13 deaths, 
and it raises a lot of questions about why it took almost a 
decade for the automaker to report a serious safety defect. We 
went through a similar episode with Toyota, and in response in 
MAP-21, Congress increased the penalty for failure to report a 
safety defect from $16 million to $35 million.
    How do we get the industry to take timely safety reporting 
seriously?
    Secretary Foxx. Well, Madam Chair, specifically on the GM 
question, we are conducting an ongoing aggressive investigation 
into GM and the timing of the recall. As a data driven 
organization, the National Highway Traffic Safety 
Administration (NHTSA) has worked with hundreds of millions of 
vehicles to assure that the public is safe, and we will 
continue to do so. Over the last decade there were complaints 
related to this particular vehicle, and despite three crash 
investigations and other research, the data was inconclusive. 
It just did not point to a formal investigation. NHTSA is 
currently looking for ways to improve its own investigations 
and recall processes, lessons learned, and we will continue to 
do that as well as we are going through a formal investigation 
of this particular incident.
    What I would say to your more general point is that 
situations like that get the attention of the entire industry, 
and we will continue to be vigilant as an agency to ensure that 
the public is safe. We cannot speculate as to the outcome of 
this investigation to this point, but you have my assurance 
that we will be very, very tough when we find that timeliness 
has been a problem.
    Senator Murray. Well, I think the recall raises some 
questions about why the National Highway Traffic Safety 
Administration failed to open a defect investigation despite 
260 relevant complaints since 2003, and warnings from an agency 
special crash investigation report back in 2007. I want to know 
what happened here. Was there some key information missing in 
NHTSA's analysis of these complaints? Is there a larger problem 
with NHTSA's process and pattern analysis software? What are we 
looking at here?
    Secretary Foxx. Again, NHTSA is a data driven organization, 
and there were three crash investigations that NHTSA went 
forward with. The results of those investigations were 
inconclusive.
    Now, a question that we are asking is whether there was a 
timeliness issue with GM's bringing to our attention the issues 
regarding this ignition switch. It is our belief that we had 
known that there was an issue that might have changed the 
outcome of those initial crash investigations. We still have to 
find our facts, and that is what we are doing today. And once 
we have discovered what the facts are, we will develop 
solutions both internally and externally designed to address 
those issues.

                                NEXTGEN

    Senator Murray. Okay. And we look forward to having a 
continuing conversation on that. I also wanted to ask a 
question. Obviously everybody is following what has happened 
with the Malaysian Airlines jetliner. It is really hard to 
believe that we have not found any sign of the wreckage. This 
did not happen under FAA's watch, of course, or under the 
jurisdiction of the National Transportation Safety Board 
(NTSB), but I wanted to hear your perspective on how FAA 
protects passengers.
    As both Senator Collins and I mentioned, we are investing 
billions of dollars in NextGen. It is an effort to modernize 
and improve our air traffic control system. Can you talk a 
little bit about how these investments will help the FAA 
improve its ability to track aircraft?
    Secretary Foxx. Well, essentially what NextGen promises is 
to take us from a World War II radar-based system to a 21st 
century GPS system, if you will. And for that reason, we do 
believe there will be opportunities to have better tracking of 
aircraft in not only our national air space, but potentially in 
the global air space.
    With specific respect to the Malaysian incident, I think it 
would be premature of us to make a connection between the 
technology, and so I cannot make any representations there. But 
I can absolutely tell you that we think there will be huge 
benefits to getting NextGen deployed.
    Senator Murray. Okay. Including the ability to track.
    Secretary Foxx. Yes.

                         TRANSIT SAFETY OFFICE

    Senator Murray. I only have a few seconds left. I wanted to 
ask you about transit safety. I am really pleased to see the 
Federal Transit Administration's (FTA's) progress in standing 
up its safety offices. We know transit ridership is at its all-
time high since 1956, but I wanted to talk with you about the 
experience FTA has gained since passage of MAP-21, what it has 
learned about, like, local safety practices, and are there any 
areas of operations that you are particularly concerned about.
    Secretary Foxx. Thank you for the question, and it is 
really heartening to have the support of this Congress in 
trying to stand up a new safety function within FTA. We are in 
the process of scaling up our resources in that regard. We have 
hired 20-plus people to this point. I expect that there will be 
additional hires before the end of this calendar year.
    Our early experiences with beginning to develop the 
regulatory regime have been very, very good. We have gotten 
lots of feedback through our comment process to this point, and 
I expect that within the next several months we will have more 
to say on that. We can certainly submit more for the record.
    [The information follows:]
                 Transit Safety Office Lessons Learned
    The Federal Transit Administration (FTA) has learned a great deal 
about safety policy and process development since the implementation of 
MAP-21. The statutory safety authority granted to the FTA by MAP-21 
necessitated the development of an entirely new branch of the 
organization: the Office of Transit Safety and Oversight (TSO). TSO has 
the unique challenge of creating a new wedge of Government from 
scratch, focused on both the policy needed to assume regulatory safety 
authority as well as the many processes needed to orchestrate the daily 
workings of a regulatory safety agency.
    The policy development process has been educational, and involves a 
tremendous amount of stakeholder engagement to ensure that TSO has 
considered every angle of the rulemaking challenges ahead. Some of the 
specific lessons learned include:
  --Having a Plan.--A well-researched plan is vital to avoid becoming 
        an organization that doesn't think through the ramifications of 
        its rulemaking. Other transportation modes, such as the Federal 
        Aviation Administration (FAA) and the Federal Railroad 
        Administration (FRA), do not have to worry about this 
        perception quite as much as TSO, because other modal 
        administrations have a long history of regulatory safety 
        involvement with their respective industries. This long history 
        means that regulatory involvement has evolved as the industry 
        has evolved, allowing for subtle and steady change over time. 
        The FTA, however, is faced with an enormous amount of 
        rulemaking all at once; hence the pitfall of hasty rulemaking 
        devoid of stakeholder engagement and consideration for second 
        and third order effects.
  --Building State Relationships.--As a regulatory safety organization 
        TSO must be able to deal with the States in order to help them 
        achieve MAP-21 grant compliance.
  --Building Safety Processes.--TSO is building an independent accident 
        investigation office, robust safety data collection and 
        analysis capabilities, safety recommendation processes, Safety 
        Management Systems (SMS) training programs, safety assurance 
        processes, and a myriad of other safety processes vital to 
        successfully implementing our new statutory authority.
  --Working With Other Federal Partners.--FTA is paving new working 
        relationships across a wide spectrum of Government entities, 
        from the congressional leadership to the Department of Homeland 
        Security (DHS), the National Transportation Safety Board (NTSB) 
        and the safety components of all the other modal 
        administrations.
Concerns
    FTA's biggest concern is the availability of resources and time 
needed to establish the new safety mission.
    As TSO is organized, equipped and trained FTA is ever mindful that 
these are challenging and uncertain fiscal times for the Government. 
FTA is working very hard to be good stewards of the resources with 
which they have been trusted.
    FTA is also keenly aware of the calendar and upcoming congressional 
deadlines. Congress mandated a variety of milestones which are the 
drivers behind every project timeline.
    FTA is making ever larger strides and is working towards 
successfully implementing both the letter and spirit of the MAP-21 
legislation.

    Senator Murray. Okay. I think there are a number of members 
on this committee that are very interested in following that.
    Secretary Foxx. Sure. Good.
    Senator Murray. Senator Collins.

                         GENERAL MOTORS RECALL

    Senator Collins. Thank you. Secretary Foxx, just following 
up quickly on the chairman's question on the General Motors 
recall. Is there a certain threshold that triggers an 
investigation by the National Highway Traffic Safety 
Administration? In this case, we know there were hundreds of 
consumer complaints. We know that there were crashes that 
involved deaths beyond the three that you mentioned. Is there a 
number of complaints or injuries that trigger NHTSA to 
investigate?
    Secretary Foxx. There is an awful lot of data that NHTSA 
reviews before stepping up to the next level of investigation. 
It really depends on the exact circumstances of the situation. 
But in this case, the three crash investigations that were done 
were inconclusive.
    Now, as we learn more information, we may learn that our 
process for reviewing situations such as this needs to be 
improved, and we are always looking for ways to improve. But 
right now we are still in the fact gathering stage, and we look 
forward to sharing with you our findings and what we have 
learned.

                            SPENDING BALANCE

    Senator Collins. In reviewing the budget, I was struck by 
the fact that given the backlog of roadway and bridge 
improvement projects nationwide, that the budget proposes a 60 
percent increase in transit spending, but only a 17 percent 
increase for highways. Given that far more passengers and 
drivers use our highways than use transit, why is there such an 
imbalance in the funding?
    Secretary Foxx. Well, when you separate out how the balance 
of funding actually looks over the whole $302 billion, there is 
$199 billion dedicated specifically to highways and $72 billion 
dedicated to transit. And so, there is a very significant and 
more than double the investment of the budget proposal goes to 
highways than transit.
    Now, as far as the increase in transit, what we are finding 
are two major issues that the country is experiencing. One 
challenge is that we have legacy transit systems that are 
greatly in need of repair, and they span all over the country. 
The other challenge that we have is that we have some fast 
growing parts of the country that are going to be overwhelmed 
by the population surges we are expecting over the next several 
years. And so, many of these communities are trying to get 
ahead of those population surges by creating more 
transportation choices for their citizens.
    And so, we believe that part of our responsibility as the 
administration is not to just look at where things are today, 
but to actually be part of forecasting where things are going 
and to propose a budget that will solve more of the problems 
not only today, but for tomorrow.
    Senator Collins. It strikes me, as a provision, when I see 
a 60 percent increase for transit and only a 17 percent 
increase for highways, that it is really biased toward urban 
States that have mass transit as opposed to more rural States. 
So I look forward to more dialogue with you on that.

                            HOURS OF SERVICE

    I want to in my remaining time bring up one other issue in 
this round, and that is the Department's hours of service 
regulations that limit the number of hours that a commercial 
truck driver can drive. This is extremely complicated. It 
includes a restriction limiting the use of the 34-hour restart 
provision for commercial truck drivers to 168 hours or once a 
week. The impact in my State at least has been to reduce 
drivers' wages and companies' productivity.
    The Department released a study in January which failed to 
address why the 34-hour restart was limited to only once every 
168 hours. We have talked to the scientists in the Department 
who conducted the study, and they tell us that a 34-hour 
restart break provides adequate time to rest and recover from 
fatigue regardless of how often it is utilized. So there does 
not seem to be a scientific benefit in the way that this 
regulation is structured.
    And let me just give you a quick actual example that I have 
been told by a truck driver in my State. Regardless of how many 
hours a driver may work in a given week, even if he or she were 
to rest for a straight 55 hours, if the previous restart period 
was not a full 168 hours prior, then that driver returning to 
work on Monday would be very limited in the number of hours 
that he or she could work. And in the case I was given, it was 
only 5 hours, and I do not really think that that was what was 
intended. I think this is a flaw in the regulation.
    Obviously all of us want to make sure our truck drivers are 
rested and support that as an important safety goal. But this 
regulation in its complexity seems to be having impacts that 
were not anticipated.
    Secretary Foxx. Senator, I would like to submit for the 
record on this question and maybe share some additional detail 
of the studies that we have done. As a database organization, 
our goal is to try to keep truck drivers and everyone who is 
using our transportation system safe. And our belief is that 
the data that we have supports the rule that we have. But I 
would like to submit for the record and have further 
conversation with you about this issue if possible.
    [The information follows:]
                     Hours of Service Restart Rule
    The 2011 final rule is intended to reduce excessively long work 
hours that increase both the risk of fatigue-related crashes and long-
term health problems for drivers. The objective of the rule is to 
reduce both acute and chronic fatigue by limiting the maximum number of 
hours per day and week that drivers can work.
    Since the 2003 rule was promulgated, research studies have 
demonstrated that long work hours, both daily and weekly, lead to 
reduced sleep and, in the absence of sufficient recovery time, chronic 
fatigue. The 168-hour limitation ensures that they can put in no more 
than an average of 70 hours per week--an increase over the average of 
61.25 hours allowed under the pre-2003 rules, allowing for some 
improvements in productivity and a chance to spend more time at home, 
but a dramatic drop from the nearly 82 hours per week allowed up until 
July 1, 2013.
    The new limitation on the use of the restart to once every 168 
hours (7 days) allows drivers to work long hours (81 hours) in one week 
but requires them to compensate in the subsequent week by taking extra 
time off.

    Senator Collins. I would be glad to do that. Thank you.
    Senator Murray. Thank you. Senator Feinstein.

                       UNMANNED AIRCRAFT SYSTEMS

    Senator Feinstein. Thank you, Madam Chairman. Mr. 
Secretary, last week an administrative law judge with the 
National Transportation Safety Board (NTSB) found that the 
FAA's current regulations on aircraft do not apply to small, 
model unmanned aircraft. This decision would effectively lift 
the FAA's prohibition on commercial use of small-modeled 
drones, even though we passed legislation to safely integrate 
them over several years, assuming the FAA's prohibition would 
remain in place.
    In my view, this decision poses a great risk to people both 
in the air and on the ground, as well as to individual privacy, 
and it is contrary to congressional intent. My understanding is 
that the FAA immediately appealed this decision to the full 
NTSB, which has the effect of putting the decision on hold. Can 
you confirm that the FAA will continue to enforce its existing 
prohibition while this appeal is pending?
    Secretary Foxx. We will enforce that prohibition to the 
greatest extent the law allows. And we are going to absolutely 
appeal all the way through every process there is.
    Senator Feinstein. Thank you. Second question. Should this 
appeal not be successful, can you provide your assurance that 
the FAA will take the steps necessary within its legal 
authority to restore the restriction on commercial drones use 
while the 2012 FAA Act is implemented as intended?
    Secretary Foxx. We believe, as I believe you do, that the 
safety of our national air space is very important. And because 
of that, this new and emerging area of unmanned aircraft, while 
exciting, also presents challenges. And we do think the FAA is 
the best entity to help mitigate and address some of those 
challenges and build us a regulatory regime that protects the 
safety of the public. And so, for that reason absolutely we 
will do everything we can.
    Senator Feinstein. Good. Thank you. Mr. Secretary, the 
report accompanying the omnibus appropriations bill that 
recently passed the House and Senate stated the following, and 
I quote: ``The FAA is directed to conduct a study of the 
implications of unmanned aircraft systems integration into 
national air space on individual privacy.'' We identified a 
number of areas this study should address, including gaps in 
existing law and ``how the FAA can address the impact of 
widespread use of unmanned aircraft systems on individual 
privacy.'' The report is required to be submitted to this 
committee within 18 months of enactment with the understanding 
the study will be completed well in advance of the FAA's 
schedule for developing regulations.
    This is an issue of great importance to me, and I will 
continue to insist on action in this area. I am very worried 
about it. Can you please provide an update on this privacy 
study, including whether it has begun?
    Secretary Foxx. Senator, I would like to submit on the 
record on that and have our FAA team follow up on exactly where 
that process is. I do not want to misstate it, so I would like 
to come back to you on the record.
    [The information follows:]
                    Unmanned Airspace Systems Study
    The Federal Aviation Administration (FAA) is participating in 
interagency discussions on the domestic use of Unmanned Airspace 
Systems (UAS) that promote safe UAS operations and the protection of 
privacy, civil rights and civil liberties when operated for Government, 
commercial, or private use.
    The discussions are ongoing, and intended to provide guidance on 
policies not covered by the FAA's existing and future work.

    Senator Feinstein. Thank you. Just note this is an area I 
pay a great deal of attention to. I am very concerned about 
these drones starting up all over the country with all kinds of 
risks to personal privacy and personal safety. So I think it is 
really important that the report get done. Thank you very much. 
Thank you, Madam Chairman.
    Secretary Foxx. Thank you.
    Senator Murray. Thank you. Senator Moran.

                            CONTRACT TOWERS

    Senator Moran. Thank you, Chairman. Mr. Secretary, thank 
you again for joining us. Let me see if I can ask an array of 
questions in a short amount of time.
    First of all, I think that the Contract Tower Program is 
one of our most successful and cost-effective programs. And as 
you would have noticed in the last year or so, this Congress 
has demonstrated a significant bipartisan support for that 
program.
    My question is, what does the President's budget include, 
as well as what are your personal thoughts about the program? 
Do you appreciate and value its efficacy and support its 
continued operation? Does the President's budget reflect that 
as a priority?
    Secretary Foxx. Thank you for the question, Senator. The 
fiscal year 2015 budget does include funding to continue to 
operate the Contract Tower Program to answer that part of your 
question.
    Senator Moran. Would that be at a level that is sufficient 
to keep the contract towers that are operational today continue 
to operate?
    Secretary Foxx. That is correct. That is correct.
    Senator Moran. That is correct?
    Secretary Foxx.Yes, sir. Yes, sir.
    Senator Moran. Thank you.
    Secretary Foxx. At the same time, and just to further 
answer the question that you asked, we are in a constrained 
budget environment, and there is increasing demand on our 
aviation system. And as you are well aware, there will be an 
opportunity in fiscal year 2015 to do an FAA reauthorization 
bill, and I think there will be a lot of equities put on the 
table across all of the stakeholders in the aviation community.
    So the FAA is continuing to think about and work with the 
stakeholder community on how to balance all the equities with a 
new FAA reauthorization bill. But as far as our budget is 
concerned, we are maintaining Contract Tower, sir.
    Senator Moran. And you, Mr. Secretary, are familiar enough 
with the program to have a feel for its value?
    Secretary Foxx. Well, first of all, I think in general I 
have a very deep and abiding interest in making sure 
communities across America are connected to the 21st century 
economy, and being connected to the national air space is part 
of that connection. So I think you will not have any hesitation 
from me to try to do everything I can to make sure communities 
across America area continuing to be connected.
    Senator Moran. I appreciate that. Sometimes I think when I 
ask questions about general aviation, it is thought of as 
Senator Moran is from Kansas, the place that we manufacturer 
lots of general aviation aircraft. Clearly true and have a 
great regard for that aspect of general aviation. But I 
sometimes think it is forgotten that rural America has a great 
interest, a lot at stake in whether or not our smaller 
community airports have the ability, as you described, to 
access a global economy. And our ability to retain jobs in 
rural America, a manufacturing business in a smaller town in 
Kansas in many ways is related to the ability to get executives 
in and out, customers, suppliers, and to connect with the rest 
of the world.
    And so, while I approach general aviation as certainly 
somebody who promotes Wichita and Kansas as the air capital of 
the world, there is also the greater aspect of our State that 
is so rural that our ability to have in this case air traffic 
control towers, air control systems, really does determine 
whether or not a smaller town has a bright future economically, 
medically, socially. And so, I appreciate the comments that you 
just made.
    In regard to general aviation on the more manufacturing 
side, one of the consistent concerns that is raised with me, 
and it has become more prevalent over time, is the ability to 
in a timely way certify changes in the manufacturing process 
and product, in a sense that the broader aspect of this is 
regulatory reform at the FAA. Do you have any thoughts, any 
plans, or suggestions on how the certification process can be 
made while maintaining the safety aspect of the program to 
reduce the time that it takes for us to have certification 
occur?
    In part this has become more important as we have many 
competitors now from abroad who manufacture airplanes, who have 
a different system, perhaps a more timely, efficient system, 
and making that certification possible, while the domestic 
aviation industry has a more cumbersome process. And I know 
that there is an organization designated authority (ODA) that 
allows in a sense self-certification in some aspects.
    And my question is, tell me your thoughts about how we can 
improve the efficiency of the certification process.
    Secretary Foxx. Well, look, we should be trying to assist 
our manufacturers more rapidly produce product and get that 
product into the marketplace, and we are finding that even in 
the general aviation space. Where we find that there is a 
capacity for a company to actually meet the standards, we are 
giving them more leeway in terms of being able to do some parts 
of the certification process.
    We look for ways to do that in such a way that it does not 
compromise safety, which is also, as you know, our chief 
mission. And we will continue to look for ways to balance those 
equities as well with our private sector manufacturers.
    Senator Moran. Mr. Secretary, if you would be willing, I 
would be interested in hearing from someone from your 
Department about the number of opportunities there, whether 
they are increasing, decreasing for that, in a sense, self-
certification in certain aspects of aviation.
    Secretary Foxx. Sure.
    Senator Moran. If you could educate me as to whether that 
process is being more utilized, less utilized, and what the 
impediments are to that occurring.
    Secretary Foxx. Sure. I would be happy to submit for the 
record and have our staff meet with you as well to talk about 
it. My sense is that it is increasing, but we will submit for 
the record on that, sir.
    [The information follows:]
                     Aviation Product Certification
    The Federal Aviation Administration (FAA) regulations allow for 
authorizing both individuals (designees) and organizations 
(Organizational Designation Authorization (ODA)) to perform work on 
behalf of the FAA.
    The FAA can delegate compliance findings and airworthiness 
inspections activities to an individual designee or an ODA holder on 
projects managed by the FAA.
    The word self-certification is not a term used by the FAA to 
describe the certification process. While no General Aviation (GA) 
aircraft is fully self-certified, light sport aircraft (LSA) 
manufacturers may design, build, and test their aircraft in accordance 
with industry accepted consensus standards rather than established FAA 
airworthiness standards.
    For LSA the FAA does not issue production or type certificates, 
instead the manufacturer provides a statement of compliance that it has 
met applicable consensus standards. Upon finding that the applicant has 
met the requirement the FAA then issues the airworthiness certificate.

                      AIRPORT IMPROVEMENT PROGRAM

    Senator Moran. My final question, Mr. Secretary, is in 
regard to Airport Improvement Program (AIP) funding. My 
understanding is the President's budget reduces the amount of 
money available for AIP, the Airport Improvement Program. My 
understanding is that that there is a greater focus on smaller 
general aviation aircraft--airports, I am sorry.
    And my question is, ultimately is there more money 
available to those smaller general aviation airports under the 
President's plan than there currently is? We have a smaller 
pie, apparently focused more on smaller airports. And does that 
mean that those smaller airports are likely to have more access 
to more dollars?
    Secretary Foxx. We believe so, sir. The way that our 
proposal works is that we essentially create a mechanism for 
large hub airports to have the ability to levy passenger 
facilities charges within a certain range. And the price for 
that is to reduce the amount of the overall AIP so the larger 
airports have more flexibility. They can do more on their own. 
But for the smaller airports, the pie actually gets a little 
bigger. So for them, there is an actual opportunity for 
increase.
    Senator Moran. Mr. Secretary, thank you very much. Please 
consider me an ally.
    Secretary Foxx. Thank you. I appreciate it.
    Senator Murray. Senator Reed.
    Senator Reed. Thank you very much, Mr. Secretary, and thank 
you for your great efforts at the Department. I also want to 
extend my commendation to Michael Huerta, the FAA 
administrator. We have worked closely with him in providing the 
resources and the assistance to expand our runway in 
Providence, and also to make safety improvements. And that is 
going to be a major contribution to economic development going 
forward, and I just want to thank you and ask that you thank 
Michael also.

                           HIGHWAY TRUST FUND

    With respect to the issue which is very critical, highway 
funding, Peter Rogoff is here, your acting policy director. He 
was at our Banking Committee a few weeks ago indicating the 
seriousness of this issue, and I do not have to explain that to 
you. In terms of States, and we are not alone, our fiscal year 
begins July 1, so our Department of Transportation is already 
suspending new projects because as it stands now legally, 
September 30, there is no Federal money, and most of our 
Federal money is already committed.
    And so, how are you going to manage over the next several 
months to provide whatever resources you can or extra resources 
if you can find them to help States just get as much out of the 
existing structure as possible?
    Secretary Foxx. Thank you for the question, Senator.
    Senator Reed. I think your microphone is----
    Secretary Foxx. It is on. Thanks for the question, Senator. 
I think a couple of points. We have had a couple of near misses 
in the recent past that are probably instructive. 2008 is 
probably the closest analog, and at that point when the weeks 
leading up to the point of insolvency, the Department of 
Transportation reached out to State DOTs to give them warning 
to encourage them to make provisions. And we started to adjust 
our payment schedules to go from daily paybacks to weekly and 
doing weekly reportings and so forth.
    The situations are always dynamic because at the time that 
we reached the point of insolvency, States will all be in 
different points along the way in terms of scheduling their 
programs of work.
    I think the most important thing I can say to this question 
is that we should not get to that point. It is going to be bad 
for the country if we do, 700,000 jobs at stake. And by the 
way, the problem does not always get as much attention in 
Washington, but I know as a mayor, is that even when we solve 
the problem temporarily, it still staves off the pipeline 
because communities cannot plan so they cannot get the long-
range projects even on the table because folks are questioning 
whether the money is going to be there.
    So I think what is important here is getting some long-term 
certainty, and I am going to do everything I can to roll my 
sleeves up with you to try help solve the problem.
    Senator Reed. And I believe, as my other colleagues have 
indicated, that means getting out the Administration's language 
as quickly as possible so that we know where you are coming 
from and we all can start getting it done.

                        SURFACE REAUTHORIZATION

    Another question which is related is that I presume that 
the levels that we enacted previously in MAP-21 would be 
inadequate for the crisis we face. So we are not simply talking 
about an extension. If we really want to be serious, we have to 
not only extend, but expand. Is that accurate?
    Secretary Foxx. That is absolutely true, sir. What our 
proposal does is it basically backfills the Highway Trust Fund, 
which will run short over the next 4 years by $63 billion. And 
then we put an additional $87 billion to work through a variety 
of programs designed to address our freight plan, which is a 
product that we owe to the Congress within a short period of 
time, to creating jobs through highway construction, and 
rewarding innovation at the State level so the States are doing 
what we are trying to do, which is to shorten the timeline to 
get projects done.
    I think there are a lot of things we can do, but if we just 
backfill the Highway Trust Fund, the gap between what we need 
going forward and what we have is only going to get larger.
    Senator Reed. I would be remiss if I did not point out, as 
you well know, that just this week I think they released 
statistics showing that transit usage is reaching all-time 
highs. And we generally focus on highways, but part of this is 
also building transit systems and maintaining transit systems. 
I am pleased that the budget has a $2.2 billion proposal for 
Rapid Growth Area and Transit Programs, but transit has to have 
equal emphasis on existing urban areas in this process, as 
well.
    And just a point, at our Banking hearing, the gentleman 
representing the transit unions indicated that as a percentage 
of the population, younger people are getting driver's licenses 
less now than they were during the Kennedy administration. So I 
do think this is a passing phenomenon unless we are really 
committed to transit, not just, you know, closing the gap, but 
investing, improving, increasing, expanding, we are going to 
find ourselves with a real issue of economic development, 
access to jobs, lifestyle of a whole generation that does not 
seem to be driving as much as taking transit.
    Thank you, Mr. Secretary.
    Secretary Foxx. Thank you.
    Senator Murray. Senator Blunt.

                            HOURS OF SERVICE

    Senator Blunt. Thank you, Chairman. Secretary, thanks for 
the great job you are doing, and the good start you are off to. 
I know we both believe that infrastructure is critical, and I 
do not have much time, so I do not want to spend a lot of time 
on something we agree on. But your efforts to look at the 
different tools we can put in the infrastructure toolbox to do 
what we need to take advantage of the economic opportunities 
that will be there if we are prepared for them with our 
infrastructure I think is particularly important.
    I want to follow up on the question that Senator Collins 
asked, and certainly I am very much in agreement with her 
concerns about these driving rules. And they are just 
complicated enough that even the question was like one of those 
math questions in school that you had to read it another time 
to wonder how does that possibly all comes together.
    But the specific question I have is really, I guess, 
twofold. One is, I do not know that we are correcting a real 
problem here in terms of driving rules--of accidents that 
drivers have had because they were not properly rested, that we 
think this will really solve. But the question I want to ask 
is, did your recent study evaluate the safety impact on other 
motorists of having truckers drive more during the day than 
they are now?
    You know, this rule requires two rest periods that have to 
be between 1 a.m. and 5 a.m., a time when there are not many 
people on the road and when truckers have been on the road. 
This effectively takes them off. And so, my question is, did 
the study here evaluate the safety impact on other drivers 
having these large trucks on the road more during daytime 
hours?
    Secretary Foxx. I would like to get you a thorough answer 
from our team on the record, sir, if that is okay. In general, 
I can tell you that our analysis did show that the rule would 
prevent approximately 1,400 crashes and 560 injuries, and save 
19 lives. But in terms of the particular impacts on a certain 
hour or not, I would like to get back to you.
    [The information follows:]
                         Hours of Service Rule
    The Federal Motor Carrier Safety Administration (FMCSA) is not 
aware of any data or information that suggests the 2011 rule has forced 
drivers to shift their work schedules from nighttime operations to 
daytime operations.
    FMCSA's 2011 final rule requires truck drivers who maximize their 
weekly work hours to take at least two nights' rest when their 24-hour 
body clock demands sleep the most--from 1 a.m. to 5 a.m.
    This rest requirement is part of the rule's 34-hour restart 
provision that allows drivers to restart the clock on their work week 
by taking at least 34 consecutive hours off duty.
    Only nighttime drivers who work more than 60 hours in 7 consecutive 
days, or 70 hours in 8 consecutive days will be impacted by this 
change. Generally, the drivers most likely to be impacted by this 
provision work grueling and irregular schedules that include some 
nighttime driving. By contrast, nighttime operations of the major less-
than-truckload (LTL) carriers should be impacted minimally, as their 
drivers generally receive 2 days off-duty a week.
    The Moving Ahead for Progress in the 21st Century Act (MAP-21) 
mandated that FMCSA conduct a field study on the efficacy of the 
restart rule. The Agency has completed the final report mandated by 
Congress and this new research validates previous research findings 
that a restart break containing two or more nighttime periods is more 
effective than a restart break containing only one nighttime period 
when it comes to preventing chronic fatigue. The Research Brief is 
available at: http://www.fmcsa.dot.gov/facts-research/art-
research.aspx.

    Senator Blunt. Yes. Well, I would like to look at that rule 
and see what backs that up. But I would particularly like to 
know, again, if the recent study evaluates the safety impacts 
requiring other motorists to share the road with more large 
trucks during daytime driving hours. I believe the answer to 
that is going to be no, but I will wait for your answer to be 
submitted there.

                     SAFE TRANSPORTATION OF ENERGY

    On the Crude Oil Fund that also has been brought up, the 
$40 million to support the safe shipping of crude oil via rail 
and truck, is there any precedent for a dedicated fund for 
shipping only one type of commodity in the Department?
    Secretary Foxx. You know, I will have to get back to you on 
an answer to that question.
    [The information follows:]
                   Safe Transport of Energy Products
    From our initial review, I am unaware of any previously requested 
fund focused on the safety of shipping one commodity under comparable 
circumstances.

    Secretary Foxx. To the more general question of our theory 
of action here, we have discovered in the last several months 
and years a couple of things. One, as the production of energy 
proliferates in the United States, there comes a concomitant 
responsibility to make sure that that transport is moving 
safely across the country.
    We have had challenges with having adequate resources to 
test, having the adequate number of inspectors. And frankly, 
because this stuff is moving through pipelines, on rail, on 
highways, on trucks, even on our maritime system, the 
flexibility to be able to address these issues as they continue 
to emerge is very important.
    Senator Blunt. And so, given $40 million, you think that 
the Pipeline and Hazardous Material Safety Administration would 
spend this as a dedicated topic, or do they have other needs 
that might have tapped into the $40 million of new spending?
    Secretary Foxx. They have other needs, but I think the 
point is that we have the Federal Railroad Administration (FRA) 
that has a foothold in this issue because of the rail impacts. 
We have the Federal Motor Carrier Safety Administration (FMCSA) 
that also has a role here because some of it is carried by 
truck. And then we have the PHMSA, which controls hazardous 
material in the pipeline.
    Senator Blunt. And would that be the same answer as if 
asked why the fund was placed in the Office of the Secretary 
rather than the Pipeline and Hazardous Materials study?
    Secretary Foxx. Yes, sir. Yes, sir.

                       MARITIME HIGHWAY CORRIDORS

    Senator Blunt. I have one other question you will probably 
want to have for the record, but I want to go ahead and ask it 
while we are both here on the Maritime Administration (MARAD). 
For the record, I have two things I would like you to look at 
and respond if you do not agree, and this would be to consider 
two additional additions to the Maritime Highway Corridors, one 
of the Missouri River, one on the Mississippi River.
    The first would be an expansion of the existing M-29 
designation from Kansas City to Sioux City on the Missouri 
River. The second is the inclusion of M-35, the so-called 
Avenue of the Saints, which would connect St. Louis and St. 
Paul. And I would like you to respond on whether those 
additions can be made to the Maritime Administration Map that 
you propose.
    And thank you for the time, Madam Chairman.
    Senator Murray. Thank you very much. And I assume you can 
submit an answer for the record on that.
    Secretary Foxx. We will submit for the record, yes, sir.
    [The information follows:]
                        Marine Highway Corridors
    The Secretary of Transportation designated the M-29 (from Kansas 
City to Sioux City) as a Marine Highway corridor on July 30, 2013.
    An application to designate the M-35 (from St. Louis to St. Paul) 
as a Marine Highway corridor is currently under review and a decision 
is expected this summer.

    Senator Murray. All right. Senator Boozman.

                            HOURS OF SERVICE

    Senator Boozman. Thank you, Madam Chair. We appreciate 
having you here, Secretary Fox. I think our country is really 
being blessed with a lot of Transportation Secretaries that 
have done a tremendous job, and I think you fit right in that 
pattern in the sense of working hard for the country, in a very 
nonpartisan way just trying to build our infrastructure.
    I do think that I would like to know at some point if 
getting the trucks off the road. The fact that having to 
realize it is, that it does get them off in the evening, if 
that was an intended thing or if that is an unintended 
consequence. We see all of these studies that have come out 
over the years that indicate we have got loss of productivity 
and stuff idling in traffic. The unintended consequences of 
that with the atmosphere and things. So again, I wish you all 
would look at that and really see what is happening, but that 
seems to be the case.

                           AVIATION USER FEE

    A couple of things. The aviation user fees. You know, there 
is the thought that everybody that flies a little airplane is 
rich and has all kinds of money. I think you know that, as a 
mayor and, hanging around your airport, that is simply not the 
case. So I really hope that we can look at that. Congress has 
really not bought into that in the past.
    One thing, though, that needs to be looked at, if you 
really do plan on going forward is the ag aviation where you 
have pilots taking off and landing, multiple times a day, what 
you propose to do with them. That is kind of a unique 
situation. The other thing is the airport parts certification. 
That is an area where we have tremendous potential. It is 
already a tremendous business with exports.

                    AVIATION PRODUCTS CERTIFICATION

    Can you comment on us getting it such that we can get the 
approval process where those kinds of things can be done in a 
timely way?
    Secretary Foxx. For airplane parts?
    Senator Boozman. Yes, sir.
    Secretary Foxx. I would like to maybe have some offline 
discussion with you on the specifics of what you are concerned 
about. In general, our approach is always going to be to ensure 
the safety of the traveling public and to build up systems that 
certify the approval of parts that allow us to get there.
    As we were talking before, if there are ways for us to make 
that more efficient, we continue to have an open mind towards 
those. And I would love to engage you with you on that topic.

                      AIRPORT IMPROVEMENT PROGRAM

    Senator Boozman. Very good. Another issue is the Airport 
Improvement Program, which is so vital for our small commercial 
and general aviation airports, again supporting that program. I 
think there is a significant decrease in the budget in that 
regard. Can you comment on that?
    Secretary Foxx. Well, what we are doing is we think it is 
actually going to helpful to the large hub airports by giving 
them more flexibility with passenger facility charges (PFCs), 
but also having a reduction of dollars that otherwise would 
have gone to the large hub airports. So they get more 
flexibility. The reductions really come from what they 
ordinarily might have gotten, and that expands the pie for the 
smaller airports. So we think the equities get balanced pretty 
well by this proposal.

                          INTERSTATE CORRIDORS

    Senator Boozman. And another issue, certainly as we do the 
highway bill, the interstate corridors that we are trying to 
get completed--I-49, I-69, the corridors of national 
significance. I would appreciate you looking at those and see 
if we can get some resources to continue the great program that 
was started with the Eisenhower administration. And I think 
most of us would argue on the committee that this may be the 
difference in us being the Nation that we are, providing the 
commerce that we do with our infrastructure system.

                      U.S. MERCHANT MARINE ACADEMY

    The other thing is, very quickly as I run out of time, I 
want to thank you with helping us with the Merchant Marine 
Academy. We had a situation, really a crisis, where because of 
a glitch, they were left out when we were going through the 
difficult budget negotiations and almost had to send those 
young people home.
    We are in the process of trying to get a stronger board 
working with you all. We appreciate your help. And again, I 
look forward to hopefully getting something done to try and get 
better representation. I know that one of the problems that 
they have had even with accreditation is the fact that there 
has not been a strong outside board weighing in. So hopefully 
you can help us with that.
    Secretary Foxx. Thank you.
    [The information follows:]
                          I-49/I-69 Corridors
    Reauthorization of MAP-21 will be necessary to provide for a 
sustainable Federal aid program that, coupled with new funding and new 
project delivery provisions, as well as our successful Every Day Counts 
initiative, can accelerate project delivery.
    The President's fiscal year 2015 budget request and reauthorization 
blueprint for fiscal years 2015-2018 propose a new freight funding 
program that offers States alternatives to advance complex freight 
projects such as multi-state corridor improvements.
    The freight funding program recognizes the importance of 
coordinated State and local freight planning and prioritization as part 
of a strategy to meet regional and national freight goals including 
economic competitiveness. Corridors like I-49/I-69 can help achieve 
freight goals by contributing to the efficient movement of goods in a 
national freight system.

    Senator Boozman. Thank you, Madam Chair.

         U.S. MERCHANT MARINE ACADEMY SEXUAL HARASSMENT REPORT

    Senator Murray. Thank you very much. Mr. Secretary, every 
year the Maritime Administration is required to evaluate its 
policies on sexual harassment and sexual assault at the 
Merchant Marine Academy. The first evaluation occurred back in 
2009, and it raised some very serious concerns. That year there 
were 18 incidents in which students were sexually harassed by 
academy staff or faculty. And even worse, 75 percent of the 
students said they were reluctant to report an incident through 
the chain of command.
    Now, Secretary LaHood acknowledged this. He said the 
situation was unacceptable. He required swift action. The 
inspector general is looking into the implementation of his 
action plan. But the next evaluation, which covers the 2011-
2012 school year, is now very long overdue, and without that 
evaluation, it is impossible to determine if conditions have 
improved at the academy.
    So I want to ask you today, when we can expect to see that 
evaluation and if you can share any of the preliminary 
findings.
    Secretary Foxx. Madam Chair, first of all, you will have 
that report in 2 weeks. Over the course of the previous 
Secretary, several steps have been implemented, and I want to 
highlight some of them just to further respond to your 
question.
    The safety of our midshipmen and women is of paramount 
importance to the Academy and to DOT. They have taken some 
steps to prevent sexual harassment on campus, including hiring 
a sexual assault response coordinator and a civil rights 
director, revising its policy on sexual assault to allow for 
confidential reporting, establishing a 24/7 hotline for sexual 
assault reports, updating procedures for reporting sexual 
assaults that occur while midshipmen are at sea, and enhancing 
security measures on campus.
    There are other steps that have also been taken. We can 
provide a supplemental to the record. But what I would say to 
you is that I take this issue very seriously, and I believe 
that the situation as it was was unacceptable as well. And you 
have my commitment to do everything I can to get it on a better 
course.
    [The information follows:]
     United States Merchant Marine Academy Sexual Harassment Report
    The United States Merchant Marine Academy (USMMA) Sexual Harassment 
report was delivered to Congress on March 28, 2014.
    The safety and well-being of midshipmen is of paramount importance 
to the Academy and the Department of Transportation (DOT) and sexual 
harassment and assault will not be tolerated.
    The Academy has taken a number of steps to prevent sexual assault 
on campus including hiring a Sexual Assault Response Coordinator (SARC) 
and a Civil Rights Director, revising its policy on sexual assault to 
allow for confidential reporting, establishing a 24/7 hotline for 
sexual assault reports, updating procedures for reporting sexual 
assaults that occur while midshipmen are at sea, and enhancing security 
measures on campus.
    The Academy has also contracted with the Defense Manpower Data 
Center for surveys and focus groups as are conducted at the other four 
service academies.
    The Academy has developed a comprehensive training program for 
sexual assault and sexual harassment prevention. This training program 
encompasses all facets of Academy life to include recreational, 
athletic, academic and Sea Year. New midshipmen now receive sexual 
assault and harassment training during their first 2 weeks at the 
Academy. All midshipmen continue to receive training throughout their 4 
years at the Academy. The Academy also trains all of faculty and staff 
members on the Academy's sexual assault prevention program and has 
established a peer Sexual Assault Victim Advocate (SAVA) program that 
is led and trained by the SARC to provide another avenue for students 
to report incidents.
    Finally, the Academy has implemented a monthly Sexual Assault 
Review Board (SARB) to ensure issues are addressed with the critical 
stakeholders for immediate action. This board is chaired by the 
Superintendent or the Deputy Superintendent.
    In addition, the Academy's Plan of Action for addressing sexual 
assault has been updated to reflect nine areas that require attention:
  --Reinforcing a ``no tolerance and full reporting'' climate;
  --Correcting a perceived sexist climate at the Academy;
  --Preventing peer sexual harassment and assault aboard commercial 
        vessels;
  --Improving intervention and prevention training among faculty, staff 
        and senior leadership;
  --Intensifying awareness, prevention, and training among midshipmen;
  --Improving the variety and quantity of after-class activities;
  --Refining Standard Operating Procedures for reporting and 
        investigation;
  --Developing self-assessment tools; and
  --Increasing gender diversity in Academy employees and the Regiment 
        of Midshipmen.
    We will continue to use the information garnered from the surveys 
of midshipmen to address this issue and ensure appropriate policies are 
put in place to prevent harassment and assaults, as well as to foster a 
climate of intolerance at the Academy for such behavior at all levels.

                           PIPELINE USER FEE

    Senator Murray. Okay. Great. We expect that report in two 
weeks, and we will follow up with you on that.
    I also wanted to ask you today about the FMCSA user fee 
that you have in the budget, if that fee is not agreed to, how 
we are going to be able to move forward on things like the new 
tank car rule and other crude regulatory reforms. As you know, 
those kinds of things are hard to pass here, so I am wondering 
how we are going to fund those. If we do not have that, I will 
submit that for the record because I want to focus on something 
else here.
    And before that, I do want to just mention I appreciate 
your Department's request for $3.4 billion for bridges. We had 
a terrific accident in my State last year with the Skagit River 
Bridge collapsing and saw firsthand what happens if a major 
artery is taken out with the bridge. And that is an 
infrastructure issue that we have to focus on.

                     AIR TRAFFIC CONTROLLER HIRING

    But in my last few minutes here, I really want to talk 
about the Collegiate Training Initiative (CTI) schools and the 
fact that just a few months ago, the FAA made some very 
dramatic changes to the way they are hiring our air traffic 
controllers. And among those changes, the FAA now no longer 
relies on a pool of graduates from its Collegiate Training 
Initiative, our CTI schools. The FAA has added a new test to 
screen candidates they call the biographical questionnaire.
    Well, I am hearing from our CTI schools in my State, in 
Washington State, that they are very worried about their 
graduates. And I am hearing from the graduates as well. One CTI 
graduate from Washington State graduated with high honors, 
passed an FAA for initial qualification, has almost 5 years of 
service in the Air Force, and a commercial pilot certificate 
with an instrumental rating. That young man took this 
biographical questionnaire and failed it for reasons that are 
very unclear, and he is not the only one in this situation.
    So I want you to explain to us how the FAA has improved 
this process if this kind of applicant that I just described 
and many others are failing this initial screening.
    Secretary Foxx. Well, the goal of this current hiring 
process was to open up the 1,700 or so positions the FAA was 
hiring for this year. There will be another 1,700 spots 
available next year. And so, the person that you were speaking 
of will have another opportunity next year.
    What we have found, however, is that the group of folks 
that typically apply to the FAA for air traffic controller 
positions tends to be rather limited. And so, in this instance, 
the FAA took an opportunity to do a more broad opening of the 
aperture, if you will, to try to get a larger universe of 
applicants into the program.
    From a practical perspective, those who have been through 
the CTI program will have a leg up in the training process once 
they get through the first rounds of the interview process, but 
this is an issue that I know is continuing to be dynamic, and 
we will continue to engage with you on.
    Senator Murray. Well, I do not how I go back to a young man 
with that kind of experience and say you get another chance 
next year. This is somebody who has put a lot of investment in 
this. We are seeing results from this first biographical 
questionnaire that 28,000 applicants took the test. Only 2,200 
passed. You just described how many people we need to hire. 
Nobody understands what this biographical questionnaire is 
evaluating or why they are not making it through.
    I mean, normally if you take a test, somebody will say, 
well, here are the results, here is why you failed this test. 
We are not getting any of that. The National Air Traffic 
Controllers Association (NATCA), our air traffic controllers' 
situation, is telling us as well that they are very concerned 
about this new process. And I would assume these rates of 
failure on this biographical questionnaire have to be 
concerning to you as well.
    Secretary Foxx. They are concerning. I will say to you, 
Senator, that I will have Michael Huerta from the FAA reach out 
directly to you about this test. But my understanding was that 
a broad array of stakeholders within FAA was part of developing 
the test, so it would be surprising to me if some of the 
elements within the FAA are raising questions now. But I will 
take a look.
    Senator Murray. Okay. I want to find out why it has this 
rate of success. This is horrendous.
    Secretary Foxx. Sure.
    [The information follows:]
                     Air Traffic Controller Hiring
                     recent hiring process changes
    The Federal Aviation Administration (FAA) has chosen to make 
several improvements to the way it selects, trains, and assigns air 
traffic controllers in order to enhance decisionmaking and increase 
objectivity in the assessment of candidates. These changes included: 
evaluating all candidate sources against the same set of qualification 
standards, revising the testing process and eliminating Centralized 
Selection Panels. FAA informed the Collegiate Training Initiative (CTI) 
programs last December about these changes.
    Additionally, in previous hires, the FAA would typically keep an 
inventory of qualified candidates and draw from that pool as needed. In 
some cases applicants might wait for long durations and never receive a 
tentative offer letter from the agency. In this hire, the FAA is not 
planning to create an inventory and as a result the number of actual 
positions was very limited.
    The selection process for new air traffic controllers was very 
competitive. The FAA expanded its recruitment efforts to be able to 
select from a wider pool of eligible candidates. In the course of 2 
weeks, we received over 28,000 applications for 1,700 positions. Many 
candidates with some training and experience applied for this position 
but unfortunately the FAA has far fewer job openings than there were 
candidates.
                        biographical assessments
    The biographical assessment was designed in cooperation with the 
FAA Civil Aerospace Medical Institute (CAMI) and it measures Air 
Traffic Control Specialist (ATCS) job applicant characteristics that 
have been shown empirically to predict success as an air traffic 
controller in the FAA. These characteristics include factors such as 
prior general and air traffic control-specific work experience, 
education and training, work habits, academic and other achievements, 
and life experiences among other factors. The biographical assessment 
was independently validated by outside experts.
    The biographical assessment (BA) used for this announcement allowed 
us to meet: immediate hiring needs based on FAA Academy capacity, the 
continued goal of improving new hires' success rates through the 
academy and achievement of Certified Professional Controllers (CPCs), 
and the need to increase the speed and efficiency in the decisionmaking 
process.
                           evaluation process
    Responses were automatically evaluated through the FAA AVIATOR 
staffing tool and were weighted to correspond each questionnaire item 
with the characteristics outlined above.
                                response
    The public hiring announcement for entry-level Air Traffic 
Controllers attracted over 28,000 candidates for 1,700 positions. Of 
these 28,000 candidates, approximately 26,794 were referred on to the 
BA. The BA screened in over 2,400 candidates.
                              test results
    We have not accessed or reviewed the demographic data on applicants 
or those who passed the biographical data portion of the hiring 
process.
    While the Agency has collected applicant demographic data in 
accordance with Equal Employment Opportunity Commission (EEOC) 
requirements, the data has not been used in the selection process and 
will not be accessed or reviewed until tentative offer letters have 
been issued.

    Senator Murray. And by the way, the young man that I just 
talked about turns 31, so he is not going to be eligible to go 
again as you described. So, you know, we have got a lot of 
veterans who are not making through this biographic 
questionnaire, and I think this is an area we have got to 
reevaluate quickly. I want to understand what the partnership 
with the CTIs is today. I want to understand what this 
biographic questionnaire is. I want to know why people are 
failing, not just that they are failing, and what this is 
adding to the quality of the people that we are considering for 
this program.
    We have a lot air traffic controllers we need out there. 
The age of these folks--they are aging out of the system. We 
need to get these people hired. The CTIs are an important part 
of this, and this, to me, is really troubling. So I want to 
follow up with you on this. It is extremely important.
    Senator Collins.

                  STREAMLINING THE PERMITTING PROCESS

    Senator Collins. Thank you, Madam Chairman. Mr. Secretary, 
I was pleased to see that you have a new initiative that is 
aimed at expediting permitting and cutting excessive red tape. 
Having seen transportation projects in my State, I know that it 
can be a very slow, cumbersome process.
    But I also know that oftentimes it is really not DOT that 
is holding up the permitting and imposing excessive red tape. 
The problems are coming from the Army Corps of Engineers or 
Environmental Protection Agency (EPA). So can your effort be 
successful without the full cooperation of the Army Corps and 
the EPA?
    Secretary Foxx. It is a challenge, but it is a challenge 
that not only myself, but the President, feels very strongly 
about undertaking. We think that, for instance, in many 
infrastructure projects where there are sequential review 
processes, where the DOT has a step they go through, and then 
the Army Corps goes through, and then Coast Guard goes through, 
and then Fish and Wildlife goes through, that we can make 
substantial headway in saving time and money if we can make 
those processes more concurrent where folks are reviewing these 
things at the same time and making sure that those reviews are 
as thorough as possible the first time and there are not 
successive reviews after that.
    So the President is putting a lot of muscle behind this, 
and we will, too, as a Department. We feel like a dollar saved 
through time is also a dollar that we can apply to the 
infrastructure deficit.

                 SAFE TRANSPORTATION OF ENERGY PRODUCTS

    Senator Collins. We have talked a lot this morning about 
the President's proposal for the new $40 million fund to 
support the safe transportation of crude oil and other energy 
products. I am curious why the administration decided to create 
a brand new fund instead of working through existing programs 
in increasing the number of FRA inspectors. You mentioned that 
there is a real challenge with the diminishing number of FRA 
inspectors. Why not put some of that money instead toward 
increasing the number of inspectors?
    Secretary Foxx. Well, this is an emerging and dynamic 
situation as we begin to transport more and more of the product 
on a variety of our modes. And if there is anything we have 
learned in the last several months, it is that we need to have 
the flexibility to be able to distribute resources where they 
are needed to manage one situation or another.
    One product of this investment would be after a 2-year 
period, actually an assessment of our national surface 
transportation system's ability to move this product safely 
across all of these various modes. And I think that what would 
happen at the end of this 2-year period would be a much more 
targeted effort as you were describing.
    What I would say to you right now is that we do not know 
what we do not know where resources should be distributed, and 
this would give us the flexibility if we need it to have more 
inspections. In the rail space, for instance, we would have the 
ability to do that. If we needed to shift resources to get more 
help in FMCSA, we would be able to do that. And right now we 
feel like whether it is inspectors, whether it is research, 
whether it is testing, we need to have the ability to move 
flexibly, and that is the basis of the request.

                RAPID GROWTH AREA TRANSIT GRANT PROGRAM

    Senator Collins. Another area where there appears to be 
duplication is the new $500 million Rapid Growth Area Transit 
Grant Program that would support bus rapid transit services. 
The reason that I say it appears to duplicative to me is FTA 
has a New Starts and Small Starts Program that already funds 
bus rapid transit capital projects. In fact, if you look at the 
Smart Starts Projects, the majority of them are the bus rapid 
transit projects. So given that, why is it necessary to create 
a separate new program?
    Secretary Foxx. This has to do with the fact that we are 
seeing population surges that are likely to continue over the 
next 30 years in some places that do not have mature rail-based 
transit systems in communities that may not be able to or 
willing to make an investment in rail transit, but need to have 
more capacity to move more population on an existing highway 
system or what have you.
    I would challenge the fact that this not just an urban 
phenomenon. This is actually one that extends into suburban 
areas and into adjacent rural communities. And so, what 
providing more bus rapid transit facilities would do in fast-
growing parts of the country is it would allow them to connect 
rural America to job centers, as well as suburban areas, as 
well as urban areas.

                      COMMERCIAL DRIVER'S LICENSE

    Senator Collins. Finally, let me bring up one final issue 
with you. The previous transportation act known as SAFETEA-LU 
required the Federal Motor Carriers Administration to establish 
a minimum age requirement for obtaining a commercial driver's 
license permit. And that is said to take effect next year.
    Previously, the agency only regulated the minimum age 
requirement for obtaining the actual commercial driver's 
license as opposed to the permit. While the license for 
interstate commerce remains at age 21, the Department, in my 
view, without really taking into account existing State 
regulations, set the minimum age requirement for commercial 
driver's license (CDL) permits at age 18. Now, for most States, 
18 is the age required for a CDL for intrastate commerce.
    I am concerned that the Department has failed to fully 
examine what the implications are of establishing a Federal 
standard without regard to the existing laws in each State. 
This is also a case where one program of the Federal Government 
is taking an action that directly affects in a negative way 
another Federal program. And let me give you an example from my 
State. In my State, the minimum age to obtain a CDL permit is 
16, and Maine takes full advantage of this by offering 
vocational training programs across the State. And a federally 
funded job corps program also trains people for CDLs.
    This seems to me to be very smart, pro-safety, because 
these programs, both at Job Corps centers, the two in our 
State, and at the vocational education centers are training 
younger individuals and giving them more experience behind the 
wheel prior to their obtaining a CDL at age 18. So those 
additional 2 years of vocational training and additional 
experience actually improve safety rather than erode it. As one 
State official said to me, is it not better to have 2 years 
through Job Corps or a vocational education program to get your 
CDL license starting at age 16 rather than taking a 5-week CDL 
course at age 21.
    So my question to you is, did the Department take a look at 
the impact on existing job corps programs for CDLs and 
vocational education programs in States that had the permit age 
at 16? It is still 18 before they can get the license. This is 
the permit stage.
    Secretary Foxx. Yes. I would like to have our team submit 
for the record on that, Senator. I want to give you a thorough 
answer to that question.
    [The information follows:]
                      Commercial Driver's License
    In 1988, the Federal Highway Administration (FHWA) proposed a 
minimum age limit of 18 for operating commercial motor vehicles in 
order to be compatible with the requirements of the Motor Carrier 
Safety Assistance Program (MCSAP) and receive full grant funding.
    This age was proposed recognizing that a driver should have some 
experience behind the wheel of a non-commercial vehicle before 
operating a larger, more dangerous vehicle.
    These requirements were finalized and codified in 49 CFR 350.341. 
As a result, the minimum age for a driver to operate in intrastate 
commerce has been 18 for more than 20 years for States that have 
compatible regulations.
    In SAFETEA-LU, to establish uniformity for issuance of commercial 
learner's permits (CLPs), Congress required the Federal Motor Carrier 
Safety Administration (FMCSA) to establish a national CLP program. 
FMCSA proposed a minimum age of 18 to receive the commercial driver's 
license (CDL) learner's permit because of the already established limit 
of 18 years to operate a commercial motor vehicle (CMV) on the 
highways.
    The State of Maine did not provide the Agency with any comments to 
the docket to explain the impacts on the job corps program in Maine. In 
fact, while there were comments in response to the notice of proposed 
rulemaking (NPRM) related to the 18- and 21-year-old age limits, none 
of the comments recommended lowering the CLP issuance age. As a result, 
the Agency maintained the minimum age for CLPs at 18 and included the 
requirement in the final rule.
    However, under FMCSA's regulations, the State of Maine could apply 
for an exemption to allow for CDL learner's permits to be issued to 
drivers younger than 18 years of age. If the State is interested in 
pursuing an exemption, we can have our staff provide additional 
information on that process.

    Senator Collins. Thank you. I hope you really will take a 
look at that. Maybe there is a way to carve out those 
individuals who are going through Job Corps or vocational 
education and really getting trained very well between the age 
of 16 and 18. Thank you.
    Secretary Foxx. Thank you.
    Senator Collins. Thank you, Madam Chair.
    Senator Murray. Thank you very much, Mr. Secretary. I 
appreciate you coming before our committee today.

                     ADDITIONAL COMMITTEE QUESTIONS

    And I want to remind all of our colleagues, we will leave 
the hearing record open for 1 week for additional questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
              Questions Submitted by Senator Patty Murray
                           bridge investments
    Question. Last spring, in my home State of Washington, the Skagit 
River bridge collapsed, and I saw firsthand the devastation it caused. 
The bridge was part of a critical artery, and the local economy, small 
businesses, and the livelihoods of so many families were disrupted. 
With the help of the Department, the new span was installed and opened 
in September.
    But this incident shows the importance of investing and maintaining 
our bridges. Unfortunately, there are over 2,000 structurally deficient 
bridges on the interstate system alone. These bridges are part of our 
Nation's infrastructure deficit.
    I am glad to see that the Department's reauthorization proposal 
includes $3.4 billion dedicated for bridges.
    How will this funding address the need to invest in our Nation's 
bridges?
    Answer. Currently, the Interstate Highway System (IHS), which 
carries 24 percent of all traffic and 50 percent of all freight, 
includes more than 2,300 structurally deficient bridges. The condition 
of IHS bridges is essential to protecting the safety of the traveling 
public and allowing for the efficient movement of people and goods on 
which the Nation's economy relies. As traffic volumes continue to 
increase and States are challenged with competing needs, the 
deterioration of IHS bridges will likely accelerate without adequate 
investment. Under the Department's reauthorization proposal, $3.4 
billion over the next 4 years is to be focused on this pressing need. 
This proposal would improve the condition of many of our Nation's most 
important bridges by making available specific funding to decrease the 
number of structurally deficient bridges on the IHS.
    The Department's proposal would provide funding to address 
structurally deficient IHS bridges. Funds would be ineligible for use 
on newly constructed bridges on new highway alignments. States with 
more than 5 percent IHS deck area on structurally deficient bridges 
would be required to use funds to repair, rehabilitate or replace 
structurally deficient IHS bridges. States with less than 5 percent IHS 
deck area on structurally deficient bridges would be allowed to use 
funds to cover the cost to repair, rehabilitate or replace structurally 
deficient bridges on the IHS or the National Highway System.
    Assuming unchanged levels of bridge investment from other sources 
and the continuation of recent bridge condition trends, this additional 
$3.4 billion investment over the next 4 years has the potential to 
result in 200 fewer structurally deficient bridges on the IHS. Since 
this funding is focused on critical immediate needs, it will allow 
States to address bridges which have deteriorated quicker than expected 
or are more urgent than originally identified based on additional 
investigation.
                           chameleon carriers
    Question. For some time this subcommittee has raised concerns with 
the Federal Motor Carrier Safety Administration's (FMCSA's) ability to 
detect motor carriers that have been put out of service or are evading 
fines from getting ``new'' operating authority under a different 
corporate name. These operators are also known as chameleon carriers.
    The subcommittee initiated a Government Accountability Office (GAO) 
investigation that found this practice was not only an issue for bus 
companies and household goods operators, but also for freight carriers 
that represent 97 percent of the industry and are not currently part of 
the agency's vetting program.
    In 2012, we provided additional resources to shift to a risk-based 
vetting program that also includes freight carriers. However, I 
understand there are delays in addressing this mandate.
    When can we expect FMCSA to complete implementation of its risk-
based vetting program for chameleon carriers?
    Answer. On March 31, 2014, pursuant to the directive in the 
Explanatory Statement accompanying the Transportation, Housing and 
Urban Development, and Related Agencies Appropriations Act, 2014 
(Public Law 113-76, division L), FMCSA submitted a report to the House 
and Senate Committees on Appropriations regarding progress of a risk-
based methodology to identify chameleon motor carriers. The report 
updates and appends the proposed schedule with performance goals to 
expand vetting to the freight sector in conjunction with the 
implementation of the Unified Registration System (URS) now being 
designed and developed by FMCSA. The report reflects continuing FMCSA 
actions in moving toward expansion of risk-based vetting to include 
chameleon property carriers.
    On June 20, 2012, the U.S. Department of Transportation (DOT) 
submitted an official response to the Government Accountability Office 
Report 12-364. In the response, DOT concurred with the recommendations 
in the report and indicated that the recommendations aligned well with 
FMCSA's vision and direction in identifying, developing, and using 
robust risk-based automated screening methodologies to expand its 
vetting processes to include brokers, freight forwarders, and property 
carriers.
    In July 2012, FMCSA realigned offices to bring all registration and 
vetting functions within the Office of Registration and Safety 
Information, highlighting the importance of the registration function 
to the Agency mission. FMCSA also partnered with the Pipeline and 
Hazardous Materials Safety Administration (PHMSA) to leverage PHMSA's 
Hazardous Material (Hazmat) Intelligence Portal, a Web-based interface 
that has built-in data warehouse capabilities. The joint project 
implemented and tested a prototype solution in March 2013.
    In August 2013, FMCSA identified limited funds for the development 
of an optimization plan for a risk-based screening approach, building 
upon the match and motive foundation GAO Report 12-364 proposed and 
establishing performance objectives for the required research.
    A contract was recently awarded that will assess innovative ways to 
develop an affiliation strength and risk model. FMCSA established an 
evaluation panel, reviewed the submitted proposals, and made a Phase I 
Research award recommendation to a small business. The approach in this 
model will focus on more advanced forms of matching sources to quantify 
affiliation strength between any two motor carriers. A Request for 
Information is expected to be published by July 2014, and the 
development of a Statement of Work for the Optimization and Sensitivity 
Analysis is underway. FMCSA plans to coordinate risk-based automatic 
screening activities with the agency's URS implementation activities to 
facilitate seamless integration of this module within URS once it is 
rolled out. FMCSA plans to continue its research toward developing, 
tuning, and integrating automated risk-based screening algorithms 
within URS by October 2015. (See Table 1 of the Report to Congress 
submitted on March 31, 2014, for a summary of FMCSA's planned research 
activities, timelines and goals).
          phmsa faces cuts without approval of a new user fee
    Question. The budget request for the Pipeline and Hazardous 
Materials Safety Administration relies on a new user fee to offset the 
costs of new initiatives.
    For example, it requests $7 million for new PHMSA research, 
outreach and education activities. But this initiative is dependent on 
the creation of a new Special Permits and Approvals User Fee.
    If we are unable to reach consensus on the new user fee, as has 
happened repeatedly in the past, PHMSA will be left with a $12 million 
gap in its budget compared to the 2014 funding level.
    Are you concerned the past failure to get support for this fee will 
impact the agency's ability to move forward on the tank car rule and 
other crude oil and ethanol regulatory reforms, as well as research 
into the classification of crude oil?
    Answer. Yes. The recurrent denial of this user fee has had an 
impact on our capacity to support activities like regulatory reform and 
research to address emerging risks.
    About 40,000 companies seek PHMSA's approval to transport hazardous 
materials annually. PHMSA must review and document these applications 
for safety procedures, maintain records of applications and approvals, 
and communicate with its many partners involved in transporting 
hazardous materials. All these and related functions are paid for by 
general fund appropriations that are not offset by a fee.
    Fees for special permits and approvals would allow PHMSA to enhance 
the resources used in the special permits and approvals process, such 
as information technology (IT), for the companies who receive an 
economic benefit from holding a permit. It will also allow PHMSA to 
direct more resources toward other critical hazardous materials safety 
functions, such as regulatory reforms and proper classification.
    Question. What is the Department doing to develop broader support 
for the user fee?
    Answer. The user fee initiative is part of a larger effort to 
reduce the administrative burden of permitting. Companies gain an 
economic benefit from special permit premium services, while taxpayers 
bear the cost. The user fee simply puts this cost back on those reaping 
the economic benefits. PHMSA has described the benefits of the fee-
based program to many of its industry stakeholders. PHMSA has also 
provided technical guidance to support this budget request.
                new challenges in energy transportation
    Question. With the boom in crude oil and natural gas production 
throughout the country, the Federal Energy Regulatory Commission (FERC) 
is experiencing a high number of permit applications for the 
exportation of liquefied natural gas (LNG). The Department of Energy 
had approved 6 applications for the exportation of LNG since and has 24 
more applications pending.
    How does this trend in the exportation of LNG affect the oversight 
responsibilities of PHMSA?
    Answer. PHMSA's oversight responsibilities are increased by the 
upward trend in liquefied natural gas (LNG) exports. PHMSA regulates 
pipelines through which LNG flows as well as LNG facilities both during 
and after their construction. The LNG is then exported by ship in 
approved tanks.
    PHMSA also assists FERC in evaluating whether an applicant's 
proposed siting for an LNG export plant meets pertinent regulatory 
requirements (49 CFR 193). PHMSA has been focused on meeting the 
demands on reviewing the surge in LNG applications in a timely manner. 
PHMSA has been working with FERC to develop guidance for many difficult 
industry questions, which need to be changed along with the changing 
industry, technology, and safety concerns.
    Furthermore, the relevant regulatory guidelines are written 
primarily for LNG import, which was the industry's need before 2008. As 
many of these requirements are not clear for LNG export, PHMSA has 
developed guidance, which includes frequently asked questions for LNG 
export (http://primis.phmsa.dot.gov/lng/faqs.htm).
    Question. Has PHMSA taken a hard look at the adequacy of its 
Federal regulatory regime and does it appropriately address these 
emerging transportation trends for LNG exports?
    Answer. Yes, the existing hazmat regulations provide a high level 
of safety regarding LNG imports. Currently, bulk transport of LNG is 
only authorized to travel by highway in cargo tanks and by rail in 
portable tanks. However, no tank car authorization exists for bulk 
quantities by rail. The DOT 113 specification for tank cars is 
authorized for liquids such as ethylene and hydrogen.
    PHMSA is reviewing guidance and rules to determine where updates 
might be needed. For example, PHMSA has participated in committee 
meetings to draft National Fire Protection Association's Standard for 
the Production, Storage, and Handling of Liquefied Natural Gas (NFPA 
59A) revisions. PHMSA has also developed guidance on LNG Facility 
Siting Application Requirements (49 CFR 193), which includes frequently 
asked questions for LNG export (http://primis.phmsa.dot.gov/lng/
faqs.htm). PHMSA continues to monitor developments to ensure the safe 
transportation of LNG.
    Question. Additionally, many transportation providers in the United 
States are transitioning from diesel to natural gas to fuel their 
engines in the maritime, motor carrier and rail sectors.
    What steps is PHMSA taking to proactively prepare for the 
multimodal safe transportation of this commodity in the United States?
    Answer. PHMSA has acted on industry's request to evaluate the use 
of LNG to supply fuel to locomotives. Specifically, on March 6, 2014, 
PHSMA issued an emergency special permit to BNSF Railway to permit the 
movement of a cryogenic LNG tender car. PHMSA's action enables BNSF to 
determine the viability of LNG as a source of fuel for its locomotives. 
PHMSA will continue to be responsive to industry requests in this 
regard, especially by rail, but also the other surface modes of 
transportation. PHMSA has already received multiple inquiries for the 
issuance of special permits for the transport of both LNG and 
compressed natural gas (CNG) by rail.
    Because safety is the Department's top priority, the President's 
fiscal year 2015 budget takes a multi-faceted approach to ensuring 
energy products travel safely across our country. For example, the 
budget requests $40 million for the Safe Transport of Energy Products 
Fund. The Fund would be administered by a multi-modal Board, including 
PHMSA's Administrator. Drawing on expertise from all modes of 
transportation, the board would direct funds to activities that 
strengthen prevention and response across multiple modes of 
transportation.
    Furthermore, the President's fiscal year 2015 budget also requests 
an additional $4.74 million for research and development (R&D) in 
fiscal year 2015. The request includes funds for liquefied natural gas 
bulk tank standard design and best practices for loading and unloading 
of bulk hazardous materials, including LNG. The projects will enable 
PHMSA to support research that identifies and establishes a baseline 
comprehensive bulk rail tank car standard design for the safe transport 
of LNG. In addition, funds would enable PHMSA to undertake a study on 
crude oil and LNG commodity flow to identify key risks and prioritize 
safety activities for bulk rail and highway transportation.
                             transit safety
    Question. I'm pleased to see the Federal Transit Administration's 
(FTA's) progress in standing up its new safety office. Transit 
ridership is at its highest level since 1956, but as the incidents on 
the Metro-North Railroad over the past year--including the tragic death 
of a rail worker there on Monday morning--show there's a continuing 
safety challenge in segments of the industry.
    With the experience FTA has gained since the passage of the Moving 
Ahead for Progress in the 21st Century Act (MAP-21), what has it 
learned about local safety practices in the past 20 months?
    Answer. Over the past 20 months, FTA has stood up and continues to 
staff its new Office of Transit Safety and Oversight, published for 
public comment a joint Advanced Notice of Proposed Rulemaking for its 
Safety and Asset Management programs, and is working with States and 
transit operators on our new safety mandate, with particular outreach 
to States with rail transit agencies that will need to transition to 
the more substantial MAP-21 rail transit safety oversight requirements. 
Our staffing plan includes a position dedicated to engaging 
stakeholders and for FTA's regional offices to be more knowledgeable 
about safety challenges and practices, and to provide technical 
assistance to the transit operators in their region.
    Public transportation ridership continues to increase. In the past 
10 years, ridership has grown over 22 percent and continues to grow 2 
to 5 percent each year. Much of the growth is in the heavy rail systems 
in the Nation's largest cities. Six heavy rail transit systems--New 
York City Transit, the Washington Metropolitan Area Transit Authority, 
the Chicago Transit Authority, the Massachusetts Bay Transportation 
Authority, the Southeastern Pennsylvania Transportation Authority, and 
the Bay Area Rapid Transit District--account for almost 70 percent of 
this increase.
    Increases in crowding and demand for rail transit service require 
service enhancements, such as longer trains with greater capacities, 
more vehicles in passenger service with shorter headways, longer 
service hours, and varied service options. With heavier service cycles 
come additional demands on aging infrastructure. Budget freezes, 
reductions in operating personnel, employee turnover in key positions, 
and changing executive leadership can exacerbate issues that transit 
agencies face as equipment ages.
    Managing these challenges requires data-driven, evidenced-based 
decisionmaking that supports the allocation of limited resources to 
address the highest levels of risk to the organization. It also 
requires on-going and real-time monitoring of the condition and 
performance of critical transit assets, such as vehicles, train control 
and signal systems, traction power systems, and communications. One of 
the greatest challenges currently confronting the transit industry is 
developing and refining tools that collect the data necessary to assess 
and improve safety and asset condition in light of constrained 
budgetary resources and rising service demands.
    In addition, FTA continues to assess State Safety Oversight 
programs (SSOs) and safety readiness for federally funded new or 
extended rail transit systems. Since the passage of MAP-21, the 
Department has assessed the capacity of SSOs to meet the new statutory 
certification requirements and has determined that most are unable to 
meet them at this time. FTA apportioned new formula funds to States for 
these activities and has met with the States over the past year to 
explain and assist with the transition to being certified. A core 
component of these conversations is the authority and technical 
capability they will need to oversee Safety Management System (SMS) 
implementation at rail transit agencies.
    Accident investigations at the local level have led us to begin 
serious study of several safety concerns. FTA issued three safety 
advisories in the wake of three rail transit collisions that resulted 
in two fatalities and approximately 70 people transported to hospitals 
with injuries. In October 2013, FTA asked every rail transit agency to 
conduct a safety risk assessment to evaluate the adequacy of practices 
and procedures in place to manage the movement and storage of out-of-
service railcars and to take action as needed. In December 2013, FTA 
asked every rail transit agency to submit an inventory and hazard 
analysis regarding its programs to protect workers on the rail transit 
right-of-way. FTA will analyze these submittals through a safety 
assurance team evaluation process to determine next steps.
    Question. Are there any areas of operations that leave the 
Department particularly concerned?
    Answer. FTA funds and oversees a variety of transit operators and 
modes and our national public transportation safety program will need 
to reflect that. While the development of final rules implementing MAP-
21's new safety authority will take time, FTA has already taken 
critical first steps to address these concerns by adopting a Safety 
Management Systems (SMS) framework around which FTA will implement its 
new MAP-21 authority and has been communicating this approach to States 
and transit operators. This process leads transit agencies to assess 
risks within their operating environment and to accept the risk or to 
implement controls to mitigate it.
    Today, transit Chief Executive Officers have varying levels of 
involvement in the safety programs at their agencies and Boards of 
Directors historically have had little involvement in transit agency 
safety oversight. MAP-21 requirements and adopting an SMS framework 
will begin to change this dynamic and push safety issues to these 
decisionmakers. Already, a few Boards of Directors have established 
Safety and Security Committees to review major safety issues and 
oversee safety performance.
    FTA will continue to issue safety advisories to share potential 
concerns identified through accident investigations that increase 
awareness of the issue at other transit properties and to ask them to 
review their practices. The information collected through the State 
Safety Oversight program, including in response to safety advisories, 
will inform our safety program development.
    Question. Given that FTA and the Federal Railroad Administration 
(FRA) can be responsible for overseeing different components of some 
transit systems, how are the two Administrations working together to 
help the authorities improve safety?
    Answer. FTA and FRA continue to work together to oversee transit 
agencies with FTA and FRA regulated systems, with FRA taking the lead 
safety role for any system subject to FRA regulation. FTA and FRA 
Safety Office leadership and the Administrators meet regularly and as 
needed to discuss any emerging safety issues and rail system concerns. 
FRA and FTA regional offices coordinate directly on local system 
concerns or safety reviews. FTA attends FRA's Rail Safety Advisory 
Committee and participates on FRA's Safety Board, as needed, for joint 
use waivers or other common concerns. We have jointly sponsored rail 
safety workshops and will continue to work together on rulemakings that 
affect rail transit and commuter rail systems in order to have 
complementary, rather than conflicting or duplicative policies, reviews 
or reporting burdens.
 commuter rail challenges with implementation of positive train control
    Question. Your budget includes a proposal to fund projects that 
support the implementation of positive train control (PTC) for commuter 
railroads. Since many commuter rail service providers lack the capital 
resources to fund deployment, if authorized this could be a valuable 
tool to assist in meeting the December 2015 deadline.
    While the budget proposes $825 million for fiscal year 2015, what 
is the total projected cost that commuter railroads are expected to 
incur overall for deployment?
    Answer. Virtually all commuter railroads are struggling with the 
cost of PTC system implementation. In response, FRA has requested $825 
million for fiscal year 2015 and $2.35 billion over 4 years (fiscal 
year 2015 through fiscal year 2018) for Commuter Railroad PTC 
Compliance. This program will provide critically needed support for 
these important investments.
    There is much uncertainty about total industry costs, but FRA 
expects that deployment overall will exceed the $2.35 billion requested 
in the budget. This expectation is partly based on the experience of 
the two commuter operators in California. Information available from 
Metrolink and the Peninsula Corridor Joint Powers Board, which owns and 
operates Caltrain, indicates they have spent approximately $230 million 
and $240 million respectively, both in excess of their original 
budgets. While these early examples suggest costs could be higher than 
initially forecasted, neither system is representative of the industry, 
as each commuter railroad has unique characteristics that will 
determine the ultimate cost of implementation. Moreover, there are 
unanswered questions about key issues affecting the cost of PTC 
deployment, for instance the cost for spectrum and the allocation of 
costs between host railroads and commuter operators. For all these 
reasons, it is not clear at this time what the overall cost of 
deployment will be.
                           retention bonuses
    Question. Please provide a table for fiscal year 2013, and another 
for fiscal year 2014 (to date), listing the title, office, and salary 
of each Federal Aviation Administration (FAA) employee that received a 
retention bonus during that year, as well as the amount of the 
retention bonus itself.
    Answer. The lists provided for fiscal year 2013 and fiscal year 
2014 are current (to date) and are inclusive of all retention 
incentives received by FAA employees during those years.
    Any incentive request receives consideration. The request for this 
specific group incentive for Massachusetts met the strict guidelines 
set by the agency, in accordance with Department of Transportation 
(DOT) policy. As such, the incentive was requested by management, 
received concurrence by the Head of the Line of Business, was 
authorized for use based on justification and business case supporting 
documentation, and finally, received approval by the Office of the 
Secretary after all appropriate concurrences.
    The FAA is committed to ensuring that retention incentives are used 
only as necessary and are able to withstand high level scrutiny.
    Please see the attached tables.

                                   FISCAL YEAR 2013 RETENTION INCENTIVES--FAA
----------------------------------------------------------------------------------------------------------------
                                                                                           Retention   Retention
                Organization                          Position title            Salary      percent     amount
----------------------------------------------------------------------------------------------------------------
ATCT NANTUCKET, MA..........................  SUPV AIR TRAFFIC CONTROL SPEC.     $90,478          10  \1\ $9,048
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      84,006          10   \1\ 8,401
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      76,267          10   \1\ 7,627
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC \2\..      76,267  ..........         \3\
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      43,589          10   \1\ 4,359
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      83,375  ..........         \3\
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      86,037          10   \1\ 8,604
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......     106,684          10  \1\ 10,668
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC \4\..      20,324          10   \1\ 2,032
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      76,267          10   \1\ 7,627
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC \2\..      84,709  ..........         \3\
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      85,356          10   \1\ 8,536
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      85,788          10   \1\ 8,579
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      67,780          10   \1\ 6,778
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      76,267          10   \1\ 7,627
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC \2\..      77,487  ..........         \3\
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      76,267          10   \1\ 7,627
ATCT NANTUCKET, MA..........................  MANAGEMENT & PROGRAM ASSISTANT      46,550          10   \1\ 4,655
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      84,006          10   \1\ 8,401
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      76,267          10   \1\ 7,627
ATCT NANTUCKET, MA..........................  SUPV AIR TRAFFIC CONTROL SPEC.     119,972          10  \1\ 11,997
HYANNIS A SSC, MA...........................  AIRWAY TRANSP SYS SPEC........     103,830          20  \1\ 20,766
HYANNIS A SSC, MA...........................  AIRWAY TRANSP SYS SPEC........      79,026          20  \1\ 15,805
 
----------------------------------------------------------------------------------------------------------------
\1\ Denotes continuation of a group incentive authorized to supplement the pay of employees at an
  extraordinarily high cost location (Nantucket Island) that is included in the Rest of U.S. locality pay area.
\2\ Denotes the same employee as row directly above this one--location changed or modified agreement.
\3\ Denotes an incentive that was stopped due to expiration, review showing incentive no longer needed, or
  employee moved to a new position and is no longer eligible for a retention incentive.
\4\ Resigned March 4, 2013.


                              FISCAL YEAR 2014 RETENTION INCENTIVES (TO DATE)--FAA
----------------------------------------------------------------------------------------------------------------
                                                                                           Retention   Retention
                Organization                          Position title            Salary      percent     amount
----------------------------------------------------------------------------------------------------------------
ATCT NANTUCKET, MA..........................  SUPV AIR TRAFFIC CONTROL SPEC.     $93,012          10  \1\ $9,301
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      85,349          10   \1\ 8,535
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      43,589          10  \1\ \2\ 4,
                                                                                                             359
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      87,413          10   \1\ 8,741
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......     106,684          10  \1\ 10,668
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      86,722          10   \1\ 8,672
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      87,160          10   \1\ 8,716
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      77,487          10   \1\ 7,749
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      77,487          10   \1\ 7,749
ATCT NANTUCKET, MA..........................  MANAGEMENT & PROGRAM ASSISTANT      47,295          10   \1\ 4,730
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      85,349          10   \1\ 8,535
ATCT NANTUCKET, MA..........................  AIR TRAFFIC CONTROL SPEC......      77,487          10   \1\ 7,749
ATCT NANTUCKET, MA..........................  SUPV AIR TRAFFIC CONTROL SPEC.     121,172          10  \1\ 12,117
HYANNIS A SSC, MA...........................  AIRWAY TRANSP SYS SPEC........     103,830          20  \1\ 20,766
HYANNIS A SSC, MA...........................  AIRWAY TRANSP SYS SPEC........      80,291          20  \1\ 16,058
 
----------------------------------------------------------------------------------------------------------------
\1\ Denotes continuation of a group incentive authorized to supplement the pay of employees at an
  extraordinarily high cost location (Nantucket Island) that is included in the Rest of U.S. locality pay area.
\2\ Denotes change in service date only for incentive agreement.

                           retention bonuses
    Question. Please describe the FAA's process for approving retention 
bonuses.
    Answer. An employee's manager may request a retention incentive 
when the employee has unique qualifications or there is a special need 
for the employee's services which makes it essential to retain the 
employee. The employee must be likely to leave the Federal service in 
the absence of a retention incentive and have a performance rating of 
acceptable (or equivalent) or higher. The employee must have completed 
a minimum of 1 year of continuous service with FAA, immediately prior 
to receiving the incentive, or have been employed by FAA for a period 
established under a service agreement resulting from the payment of a 
recruitment or relocation incentive, whichever is longer.
    The requesting office must complete an authorization request form. 
The form has the employee's position information, salary, requested 
amount, and other information required to process the incentive 
request. It also includes sections for narrative justification that are 
designed to present the business reasons for the incentive and to 
address the various factors prescribed by the Department of 
Transportation policy, Departmental Personnel Manual (DPM), chapter 
575, Recruitment, Relocation, and Retention Incentives. Finally, the 
form has a concurrence/approval section with signature blocks to 
facilitate the review and approval process.
    Along with the form, any supporting documentation that may be 
necessary to support the request is added to the package. This may 
include the employee's latest performance assessment, documentation of 
an outside job offer, or documentation of any other expression of the 
employee's intention to leave Federal service absent an incentive. The 
package will also usually include an FAA Retention Incentive Service 
Agreement that outlines the conditions that the employee must agree to 
while receiving the incentive, such as the payment method, agreement 
termination and repayment liability rules, and specific performance 
objectives that the Line of Business or Staff Office (LOB/SO) has 
identified to be achieved and/or maintained in exchange for the 
retention incentive.
    Requests are initiated by the employee's manager and forwarded 
through channels to the head of the employee's office within the FAA. 
If the head of the office concurs, the request is forwarded for review 
by the servicing Human Resource Management Office to validate any 
staffing information outlined in the request and to ensure compliance 
with FAA policy. If the request meets all requirements, it is then 
presented to the Assistant Administrator for Human Resource Management 
for concurrence or non-concurrence. The request is then presented to 
the FAA Administrator, who serves as the reviewing official and may 
either disapprove the request or recommend approval. Only requests 
recommended for approval by the FAA Administrator are forwarded to the 
Department of Transportation, Office of the Secretary for 
consideration. If disapproved instead, the head of the LOB/SO is 
notified.
    At the Department, the request first goes to the Departmental 
Office of Human Resource Management (DOHRM) for technical review to 
ensure it meets the requirements outlined in DPM-575 and FAA policy. 
The DOHRM office forwards each request to the Assistant Secretary for 
Administration for consideration. When the requested incentive amount 
is 25 percent or less of the employee's basic salary rate times the 
number of years required by the service agreement, the Assistant 
Secretary for Administration makes the final decision and serves as the 
approving official. This authority may not be further delegated. If the 
amount requested exceeds that 25 percent amount, the request must be 
forwarded to the Deputy Secretary of Transportation for decision as the 
final approving official, and this authority as well may not be further 
delegated.
    The DOHRM notifies the FAA's Assistant Administrator for Human 
Resource Management of the DOT final decision, which is then relayed to 
the head of the LOB/SO. Finally, all retention incentives are subject 
to regular review to determine if the need is still warranted. This 
review may result in a determination that the incentive should be 
terminated or the amount reduced.
    The retention incentives for the Nantucket employees were approved 
as a group incentive. The approval from the Secretary of Transportation 
followed the same request and approval process, as stated above. In a 
Memorandum of Agreement (MOA) with National Air Traffic Controllers 
Association (NATCA) (the union representing air traffic controllers), 
the FAA has agreed to continue an allowance for controllers at 
Nantucket through the life of the current collective bargaining 
agreement. The FAA's Human Resources policy office and Air Traffic 
Organization are reviewing alternative approaches, in lieu of retention 
incentives, to meet the business need to recruit and retain employees 
at Nantucket while continuing to abide by the MOA with NATCA. We expect 
to complete the review and implement an alternate solution prior to the 
annual review of the Nantucket Retention Incentives that is due in 
early December, in compliance with the Department of Transportation 
policy. The FAA will need to meet collective bargaining obligations 
prior to implementation of any alternate solution that is developed.
    The original Letter of Agreement resulting from negotiation was 
signed on November 9, 2010. The Agreement will terminate upon the 
expiration of the 2009 Collective Bargaining Agreement (CBA) between 
the Agency and NATCA but may be reopened upon mutual consent of the 
parties. The current expiration date of the CBA is July 1, 2016. In 
lieu of continuing the group retention incentive, the Agency is 
collecting data on the cost of living and housing costs at Nantucket, 
and at other locations for comparison purposes. Some solutions in use 
by other employers on Nantucket Island are also being reviewed. We will 
use this data as we consider alternatives to address the recruitment 
and retention challenges for the Nantucket facility. The primary 
alternative under consideration is to use the Agency's broad Personnel 
Management System (PMS) authority to use an existing negotiated pay 
differential or create a new pay differential or allowance for these 
employees. No formal recommendations have been made to date, but staff 
is beginning to review the data collected so far and will be forming 
recommendations for consideration later this summer.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                         availability payments
    Question. States are increasingly looking at public-private 
partnerships that are financed or funded by the use of availability 
payments. What provisions of law and regulation dictate the use of 
availability payments?
    Answer. We are not aware of any Federal statutes or regulations 
explicitly addressing the use of availability payments, which offer an 
alternative to toll collections as compensation to a private 
concessionaire operating under a long-term agreement with a public 
agency. The Federal Highway Administration (FHWA) recently implemented 
a policy to allow State Departments of Transportation (DOTs) 
considering this delivery method to count on a level of Federal 
assistance comparable with that of a traditional public works project 
(http://www.fhwa.dot.gov/ipd/pdfs/fact_sheets/
tifia_availability_payments.pdf). The State and its concessionaire must 
comply with all applicable Federal-aid rules and regulations throughout 
the term of the agreement, which may encompass the design, 
construction, finance, operations and maintenance phases of a Federal-
aid facility.
    Question. How many Federal-aid road and transit projects are using 
availability payments?
    Answer. Florida's I-595 Express Lanes project, which opened at the 
end of March 2014, is the first Federal-aid highway project developed 
under an availability payment concession. Currently, four other 
Federal-aid highway projects using availability payments are under 
contract (including Presidio Parkway (California); East End Crossing 
(Indiana); Goethals Bridge Replacement (New York/New Jersey); and Port 
of Miami Tunnel (Florida)), and at least seven more are in procurement 
(including I-4 Ultimate (Florida); Portsmouth Bypass (Ohio); I-69 
Section 5 (Indiana); Illiana Corridor-Illinois Portion (Illinois); 
Illiana Corridor-Indiana Portion (Indiana); Project Neon (Nevada); and 
Pennsylvania Rapid Bridge Replacement (Pennsylvania)).
    Question. How many States are using Federal formula funds to make 
availability payments?
    Answer. Two States--California and Indiana--have made arrangements 
to use Federal aid directly for availability payments. Projects can 
utilize Federal aid via several alternatives. In the I-595 Express 
Lanes, for example, Federal-aid funds participate in discrete 
construction and maintenance projects. Other projects fall under 
Federal-aid regulation by virtue of the concessionaire receiving 
Transportation Infrastructure Finance and Innovation Act (TIFIA) 
financing, rather than the State receiving reimbursement for its 
payments to the concessionaire. California's Presidio Parkway, the 
first proposed use of Federal-aid formula funds in a State's concession 
agreement, prompted the FHWA in 2012 to develop a policy allowing 
reimbursement to a State DOT for availability payments. Since then, 
Indiana has arranged for Federal-aid formula fund participation in its 
availability payments for the East End Crossing.
    Question. How much Federal funding is being used for availability 
payments?
    Answer. The maximum total Federal-aid participation in the Presidio 
Parkway and East End Crossing projects is about $2.3 billion, scheduled 
for disbursement over the next 30 years per the terms of the agreements 
between the States and the concessionaires.
    Question. Are there any restrictions on a State's use of Federal 
formula funds for availability payments?
    Answer. Consistent with a traditional public works project, the 
State and its concessionaire must comply with all applicable Federal-
aid regulations under an availability payment agreement. Because 
routine operations and maintenance are ineligible for Federal aid, the 
portion of each availability payment represented by these activities 
must be deducted from FHWA's participatory amount.
    To receive Federal-aid reimbursements throughout the long life of a 
concession agreement, a State DOT would employ a cash flow management 
tool known as advance construction, whereby the State receives approval 
to deliver the project in advance of the apportionment of authorized 
Federal-aid funds. As each availability payment comes due, the State 
would convert this relative portion of the project to a Federal-aid 
project. Under advance construction, no Federal funds are obligated to 
the project until the States convert the project, or portion of the 
project to a regular Federal-aid project and the FHWA provides no 
guarantee regarding the availability of future Federal-aid revenues.
    Question. If a private concessionaire fails to meet performance 
standards and a State reduces availability payments, are the 
corresponding Federal share of availability payments similarly reduced?
    Answer. Yes. The FHWA establishes the maximum Federal-aid 
participation rate at the outset of the concession agreement, and any 
reduction in a State payment would reduce proportionately the maximum 
Federal-aid payment.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                         positive train control
    Question. I want to thank you and the administration for requesting 
$825 million for positive train control (PTC). As we continue to see 
time and again with these horrific train accidents, most recently with 
Metro-North in New York, positive train control will mean the 
difference between life and death once it is fully implemented. In 
announcing the sixth round of the Transportation Investment Generating 
Economic Recovery (TIGER) program, the President emphasized improved 
safety as major criteria for awarding grants. Moreover, this 
subcommittee included report language in its fiscal year 2014 
appropriations bill clarifying that positive train control projects are 
eligible for TIGER grant funding.
    Will you commit to ensuring that positive train control projects 
are given priority when determining TIGER grant awards?
    Answer. The potential safety benefits of a project are a very 
important component of how the TIGER program prioritizes projects for 
selection. I can assure you that we are aware of the safety benefits of 
PTC and will give those projects which implement PTC full and fair 
consideration as part of our competition.
    Question. Will you ensure that the Department meets the 2015 
deadline for implementing positive train control, as required by the 
Rail Safety Improvement Act of 2008?
    Answer. The Federal Railroad Administration (FRA) has requested 
$825 million for fiscal year 2015 and $2.35 billion over 4 years 
(fiscal year 2015 through fiscal year 2018) for Commuter Railroad 
positive train control (PTC) compliance. This program will provide 
critically needed support for these important investments. 
Additionally, FRA has requested $1.78 billion over 4 years for certain 
Amtrak activities including PTC deployment.
    The Rail Safety Improvement Act of 2008 requires, by the end of 
2015, certain railroads to develop implementation plans and then to 
implement PTC systems in accordance with those plans, and the law 
prohibits installation of a PTC system unless the Department has 
approved it. We are continuing to provide support to railroads and 
working to remove blockages from critical paths to implementation.
    The Department identified a number of programmatic and technical 
issues impeding the timely implementation to PTC systems in the Federal 
Railroad Administration's August 2012 report to Congress. In addition, 
after the report was published, a new issue arose: deployment of 22,000 
PTC communications towers, mostly along the wayside of railroads to be 
equipped with PTC systems. The extent to which these issues affect 
individual covered railroads is not uniform; not all of these railroads 
are affected to the same extent or by the same issues. The specific 
issues affecting each railroad as well as the ability of the railroad 
to address the issues, the availability and effectiveness of 
alternative solutions, and the safety risks are the key determinants in 
establishing reasonable timelines to completion of PTC system 
implementation. With the exception of Amtrak, the Southern California 
Regional Rail Authority (Metrolink), and BNSF Railway Company (all of 
which, FRA believes, will complete most, if not all, of their required 
PTC installation prior to the statutory deadline), FRA believes that 
the majority of railroads subject to the requirement will not be able 
to complete full PTC system implementation by the December 31, 2015 
deadline. Partial deployment can likely be achieved, though that 
depends on the successful resolution of the current issues and any 
potential new issues discovered during the implementation process. As 
an example, the emergence of issues installing PTC communications 
towers will significantly decrease the scope of partial deployment from 
earlier reports.
    In the event that the statutory deadline passes and these railroads 
do not complete full PTC system implementation by December 31, 2015, 
FRA would continue its work with stakeholders to ensure PTC is 
implemented as quickly, efficiently, reliably, and safely as possible. 
While FRA has the statutory authority to assess civil penalties or take 
other enforcement action for each day such a railroad does not 
implement PTC after the statutory deadline, FRA also has considerable 
prosecutorial discretion to determine what, if any, action is 
appropriate. In the event of noncompliance with the PTC implementation 
mandate, FRA would examine the specific circumstances of non-compliance 
and all other factors related to the violation at that time.
        surface transportation board: california high speed rail
    Question. The Surface Transportation Board was created to protect 
competition in the rail industry, particularly freight rail. Indeed, 
the Board's original statute specifically exempted Amtrak, the only 
passenger rail service in existence when the Board was created. 
Recently, however, the Surface Transportation Board has asserted 
jurisdiction over California's High Speed Rail project, an action that 
is entirely duplicative of the Federal Railroad Administration's 
existing oversight.
    Do you believe there is a public interest in the Surface 
Transportation Board having oversight of passenger rail systems such as 
Amtrak and California's High Speed Rail project?
    Answer. The Surface Transportation Board (STB) and the Federal 
Railroad Administration (FRA) play distinct but important roles in the 
oversight and regulation of freight and passenger rail operations. STB 
is the economic regulator of transportation by rail carriers (which may 
include both freight and passenger railroads) with exclusive 
jurisdiction over (1) transportation by rail carriers and the remedies 
provided with respect to rates, classifications, rules, practices, 
routes, services, and facilities of such carriers and (2) the 
construction, acquisition, operation, abandonment, or discontinuance of 
spur, industrial, team, switching, or side tracks, or facilities, even 
if the tracks are located, or intended to be located, entirely in one 
State. 49 U.S.C. Sec. 10501(b). In contrast, from an oversight 
perspective by statute, FRA's primary role is as the regulator of 
railroad safety over both passenger and freight railroads. 49 U.S.C. 
ch. 201-213. While the two agencies have independent statutory 
oversight roles, both are essential for a safe, strong, and efficient 
national rail system.
    Question. Do you believe it is necessary for both the Federal 
Railroad Administration and the Surface Transportation Board to have 
oversight of California's High Speed Rail project?
    Answer. As described above, STB and FRA both perform important 
roles in the oversight of passenger rail systems. With respect to 
California High-Speed Rail, in addition to its safety regulatory role, 
FRA is also providing Federal financial assistance in the form of 
grants obligated as part of FRA's High-Speed Intercity Passenger Rail 
grant program. As the grantor, FRA is responsible for managing and 
overseeing the grant to ensure timely delivery of the project and 
compliance with the terms of the grant agreement. The oversight 
includes day-to-day monitoring by FRA's subject matter experts and 
formal monitoring activities that include programmatic reviews (scope, 
schedule, and budget), compliance reviews (terms and conditions of the 
grant agreement) and fiscal reviews (identification of fraud, waste, 
and abuse). STB is neither providing funding for the project nor does 
it regulate the safety of railroad operations. Instead, as described in 
its June 13, 2013 decision, pursuant to its statutory authority STB 
asserted jurisdiction over the California High-Speed Train (HST) system 
as a whole because the HST system would be constructed and operate as 
part of the interstate rail network. Based on that assertion of 
jurisdiction, STB's decision also concluded that the Merced to Fresno 
section of the HST system, which was the subject of the petition, 
should be exempt from 49 U.S.C. Sec. 10901.
                 helicopter noise in los angeles basin
    Question. Excessive and disruptive helicopter noise is a major 
issue for my constituents in Los Angeles. The Federal Aviation 
Administration (FAA) has acknowledged this problem, and in May 2013, it 
identified six action items that it would undertake and support to 
mitigate the impact of helicopter noise in Los Angeles County.
    Despite having identified the six steps 9 months ago, the FAA does 
not appear to be making meaningful progress in addressing the problem. 
I am especially concerned that, despite the FAA's assertion that 
voluntary measures would be more successful than regulations, the FAA 
has yet to identify any metric to evaluate whether or not helicopters 
would be in compliance with these voluntary measures.
    The law requires FAA to evaluate the effectiveness of its approach. 
How will FAA evaluate the effectiveness of voluntary measures without 
creating a system for actually monitoring compliance?
    Answer. The FAA has committed to undertake and support the 
following six actions identified in the May 2013:
    (1) Evaluate existing helicopter routes to identify feasible 
modifications that could lessen impacts on residential areas and noise-
sensitive landmarks.
    (2) Analyze whether helicopters could safely fly at higher 
altitudes in certain areas along helicopter routes and at specific 
identified areas of concern.
    (3) Develop and promote best practices for helicopter hovering and 
electronic news gathering.
    (4) Conduct outreach to helicopter pilots to increase awareness of 
noise-sensitive areas and events.
    (5) Explore a more comprehensive noise complaint system.
    (6) Continue the collaborative engagement between community 
representatives and helicopter operators, with interaction with the 
FAA.
    While the FAA, community representatives, and helicopter operators 
continue to work together to make progress on all six actions 
identified in the May 2013 report, FAA has focused its efforts on 
actions involving routes and altitudes. Initial foundational work has 
been necessary, as data to identify and track helicopters is limited. 
To enhance safety of operations, we are working to establish two unique 
transponder codes--one for law enforcement, emergency, and military 
helicopters and the other for all other helicopters. This will also 
improve our data analysis capabilities. We are in the process of 
finding a baseline for the analysis that captures helicopter flight 
tracks and compares them against existing routes. However, we continue 
to work with stakeholders to extract and refine data as needed for each 
particular region of interest. The complexity of airspace in the Los 
Angeles region requires multi-faceted solutions that ensure the highest 
levels of safety and avoid any unintended consequences.
    The FAA will measure our progress by tracking activities required 
for implementing the six action items outlined in the report. For 
actions involving helicopter routes, compliance with existing routes 
will be the appropriate metric in some instances. Where we conclude 
that an existing route is better than potential alternative routes, we 
will measure adherence to that route, with the understanding that each 
helicopter has to get on and off a route to transit to and from 
departure and destination points. In some locations, we anticipate 
identifying modifications to a route to safely lessen the noise impacts 
of helicopter use.
    It is important to note that the range and diversity of the six 
actions do not lend themselves to a single metric or measurement, and 
the effectiveness of actions is not necessarily determined by 
compliance. For example, the effectiveness of outreach efforts or of 
stakeholder engagement is not compliance oriented.
    Currently, FAA is unable to provide a total for cost associated 
with this effort, since there is no mechanism in place for tracking 
purposes.
    Question. Given FAA's limited resources, would you support the use 
of private contractors or other outside groups to develop a compliance 
monitoring system?
    Answer. There is precedent for using private contractors or other 
outside groups to develop systems to collect noise complaints, monitor 
noise and track adherence to voluntary noise abatement measures. Such 
systems are established, funded, and operated by a number of airport 
proprietors, many of whom use private vendors to develop and maintain 
them. The State of California or Los Angeles County could establish an 
entity with the mission, funding and authority to establish and 
administer a helicopter noise system beyond the purview of a particular 
airport proprietor, as well as establish and support a helicopter noise 
roundtable. The FAA could support such efforts with operational 
expertise and technical analysis.
    Question. Will you ensure that FAA begins a regulatory process 
before the end of January 2015 if it fails to identify a quantifiable 
metric for compliance with voluntary measures?
    Answer. The FAA will assess the status of the six actions over the 
next 6 to 9 months. If we find that we are unable to demonstrate 
significant progress in implementing these actions, we will begin a 
regulatory process as the law requires. Based on experience, FAA 
continues to believe that voluntary measures developed collaboratively 
with aircraft operators and community stakeholders are the most 
comprehensive and effective way to address helicopter noise concerns. 
Operators and community representatives have identified a myriad of 
issues and concerns in multiple locations that no single regulation can 
effectively address. We therefore expect that a regulatory process 
would be more challenging and time-consuming than pursuing the current 
voluntary approach.
                commercial and general aviation airports
    Question. The FAA's Airport Improvement Program is the primary 
Federal program investing in runways, taxiways, and airport 
infrastructure. This program is critical for commercial airports, 
particularly large hub airports like Los Angeles International Airport 
(LAX) and San Francisco International Airport (SFO).
    However, the FAA continues to award more than 30 percent of the 
program's funding to airports without any commercial service at all, 
even though the program is funded by taxes that collect more than 99 
percent of their revenue from commercial operations and travelers.
    I was dismayed to see that not only does the budget propose to cut 
funding for this program by $450 million, it also seeks to eliminate, 
once again, dedicated funding for large hub airports, thereby directing 
an even greater percentage of funding to small airports with no 
commercial service.
    Do you believe that the current distribution of Airport Improvement 
Grants is fair, given that commercial service accounts for 99 percent 
of the revenue for the Airport and Airway Trust Fund?
    Answer. The current distribution is fundamental to the safety, 
efficiency and sustainability of the air transportation system. The 
perceived disparity between the source of Trust Fund revenues and the 
types of facilities supported reflects the fundamental structure of the 
overall U.S. system of airports. The Airport Improvement Program and 
its predecessors have demonstrated it is in the public's interest to 
support a national integrated aviation system, citing the benefits 
derived from maintaining a diverse geographic network of airports. Such 
a system facilitates rural and remote access, supports military and law 
enforcement needs, expedites emergency and disaster response, and 
ensures the timely transport and delivery of commercial goods. 
Moreover, many of the smaller, non-commercial facilities provide 
alternatives to airports handling commercial passengers, thereby 
reducing congestion and delay at commercial service airports.
    The functions supported by these smaller airports are critical. In 
2012, the FAA published a study outlining a broad range of critical 
roles and functions these smaller airports serve, from basic access to 
flight training, emergency response, agricultural support, aerial 
firefighting, and many others. The larger commercial airports, 
especially large hub airports, have access to other means of capital 
like airport bonds and Passenger Facility Charges (PFCs) that by nature 
do not generate much revenue at the smaller airports. On an annual 
basis, large hub airports collect nearly $2 billion of the overall $2.8 
billion in PFC collections nationwide. This comprises between 20 and 25 
percent of capital funding for large hub airports. In addition, large 
hubs rely on airport bonds (not including bonds backed by PFC revenue) 
for nearly 50 percent of annual capital funding needs (which average 
about $7.7 billion per year).\1\
---------------------------------------------------------------------------
    \1\ Data from http://www.faa.gov/airports/pfc/monthly_reports/ and 
Airports Council, International--North America, Airport Capital 
Development Needs, 2013-2017.
---------------------------------------------------------------------------
    Question. For more than 30 years, the Airport Improvement Program 
(AIP) has helped State and local governments plan, develop, improve, 
develop, and maintain a broad-based system of integrated airport 
facilities. The AIP provides capital funding to support 3,330 public 
use airports, heliports, seaplane bases, and landing areas included in 
the federally mandated National Plan of Integrated Airport Systems 
(NPIAS).
    Would you support a provision requiring FAA to spend at least 75 
percent of Airport Improvement Program funding on commercial airports?
    Answer. I do not support either limiting the number of airports 
funded or reducing the minimum level of funding provided to airports 
that are classified as non-commercial service airports.
    Question. Which investment is likely to benefit the greatest number 
of Americans: improving airports with commercial service or improving 
airports without any commercial service?
    Answer. The national integrated system needs to be maintained as a 
whole, with both categories of airports (commercial and non-commercial) 
able to meet the needs of the users that rely upon them, both directly 
and indirectly. While people are most familiar with the commercial air 
travel benefits offered at the 511 commercial service airports in the 
United States, nearly 3,000 smaller general aviation airports form an 
extensive airport network and make important social and economic 
contributions to society. In 2009, non-airline operators at general 
aviation airports flew an estimated 27 million flights for emergency 
medical services, aerial fire-fighting, law enforcement and border 
control, agricultural functions, flight training, time-sensitive air 
cargo services, and business travel. Many of these functions cannot be 
safely, efficiently, or economically supported at larger commercial 
service airports.
    In addition to providing unique general aviation benefits, non-
commercial service airports provide a critical safety and efficiency 
complement to commercial service airports. Because of their sheer 
number and geographic distribution, general aviation airports provide a 
safety net to support commercial operators in the event of emergency 
aircraft diversions, medical emergencies, deteriorating weather 
conditions, or mechanical failures. In high-density metropolitan areas, 
general aviation airports act as relievers for congested commercial 
service airports by supporting high-volume activity by smaller and 
slower aircraft. It is therefore crucial to our national economy that 
we continue to support both commercial service and general aviation 
airports. The Airport Improvement Program has evolved over more than 30 
years to achieve precisely that goal.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
                            hours of service
    Question. In July 2013, changes to the hours of service (HOS) rules 
for commercial motor vehicle operators went into effect. These changes 
included a restriction limiting use of the commonly referred to restart 
provision to once a week. Many in the trucking industry feel this 
restriction is unwarranted and has harmful impacts, including lost 
productivity and driver wages.
    The HOS regulations are intended to address safety risks associated 
with fatigued driving by limiting the number of hours drivers may drive 
and work. Among the changes are rules prohibit driving more than 11 
hours in a shift, or driving following the 14th consecutive hour after 
coming on duty, before taking a 10-hour break. Also, the rules now 
state that any qualifying restart must include two consecutive night 
time periods of 1 a.m.-5 a.m.
    We have heard from constituents on the new hours of service rules 
and their impacts. Part of the benefits predicted was that the new 
rules would make drivers healthier and live longer. How is the 
Department of Transportation (DOT) going to continue to monitor the 
effects of the new rules to ensure that the stated goals of the rules 
are met?
    Answer. Long hours of work are associated with a number of serious 
chronic health effects, many linked to chemical changes that result 
from sleep loss. Long hours of sedentary work are also associated with 
chronic health problems. Both sleep loss and sedentary work are 
associated with obesity; more than half of truck drivers are obese. 
Drivers suffer from the chronic health problems associated with sleep 
loss and obesity at a much higher rate than workers as a whole. Because 
these types of health effects do not develop nor fade quickly, long-
term studies of the overall health of the commercial driver population 
will have to be conducted to evaluate the effectiveness on health 
problems of reducing hours of work. The DOT will collaborate in these 
studies with other Federal agencies that specialize in the study of 
health impacts.
    Question. In the recent study on DOT's hours of service it showed 
that the changes will put more trucks on the road during daytime hours. 
Does the DOT have any plans to evaluate those daytime driving safety 
impacts?
    Answer. The recent changes in the hours of service rules could 
result in some drivers switching from a nighttime driving schedule to a 
daytime schedule if their type of operation would permit that. The DOT 
estimates, though, that only a small fraction of commercial vehicle 
drivers would be impacted in that manner, and that any resulting 
potential increase in daytime commercial vehicle use would be not be 
significant.
                       electronic logging devices
    Question. The 2012 highway bill (the Moving Ahead for Progress in 
the 21st Century Act (MAP-21)) included a provision requiring 
electronic logging devices in commercial trucks. The rule has been 
repeatedly delayed but the Federal Motor Carrier Safety Administration 
(FMCSA) recently announced that their review was complete and the 
proposed rule would be announced on March 28, 2014.
    The Electronic Logging Device rule has been delayed a few times 
since it was included in MAP-21. Recently, I saw that FMCSA announced 
the proposed rule will be published on March 28 and yesterday the 
Office of Management and Budget (OMB) said the draft rule will be 
published shortly. Do you anticipate any further delays in this process 
now that we are about to see a published draft rule?
    Answer. The FMCSA published a supplemental notice of proposed 
rulemaking (SNPRM) in the Federal Register on March 28, 2014, proposing 
amendments to the Federal Motor Carrier Safety Regulations to 
establish: (1) minimum performance and design standards for hours-of-
service (HOS) electronic logging devices (ELDs); (2) requirements for 
the mandatory use of these devices by drivers currently required to 
prepare HOS records of duty status; (3) requirements concerning HOS 
supporting documents; and (4) measures to address concerns about 
harassment resulting from the mandatory use of ELDs.
    Comments must be received on or before May 27, 2014. The Agency 
will consider all public comments submitted in response to the SNPRM 
and, absent any substantive issues or concerns that cannot be resolved 
within the scope of the current rulemaking, work toward publishing a 
final rule in 2015.
 railroad rehabilitation and improvement financing: north louisiana & 
                           arkansas railroad
    Question. The North Louisiana and Arkansas Railroad has applied for 
a Railroad Rehabilitation and Improvement Financing (RRIF) and was not 
able to meet the eligibility because a large amount of capital was 
required. The eligibility standards are so high that very few can 
actually get a loan through this program.
    We know the Railroad Rehabilitation and Improvement Financing was 
being audited by the Inspector General to make the loans more user 
friendly. In Arkansas, there are several short line railroads that are 
interested this loan program, but the program's eligibility 
requirements do not allow many short line companies to qualify. Do you 
have any ideas on how we can improve the application and eligibility so 
that this program can be used by those the program was made to help?
    Answer. The statute at 45 U.S.C. Sec. 822 authorizing the Railroad 
Rehabilitation and Improvement Financing (RRIF) Program describes both 
the entities and the types of projects that are eligible for RRIF 
funding. However, the Federal Railroad Administration (FRA) has made 
significant efforts to streamline aspects of the application process 
over which the agency has authority. Over the last year, FRA has 
implemented numerous changes in its administration of the RRIF Program. 
These changes aim to improve overall efficiency and effectiveness of 
the Program and build greater transparency and accountability for all 
stakeholders. One such improvement is that FRA is now holding formal 
Draft Application Review Meetings with potential applicants during 
which subject matter experts (financial analysts, engineers, and 
environmental protection specialists) provide feedback on draft 
application materials. Engineers and environmental protection 
specialists assist applicants with necessary aspects of engineering and 
environmental review of proposed projects. Financial analysts review 
applicant financial history and projections in an effort to identify 
any potential concerns regarding ability to repay the loan. This 
continuous feedback is intended to further enhance the quality of the 
final application package submitted for review and lay the groundwork 
for a successful RRIF application. In addition, FRA is issuing detailed 
technical guidance that provides an overview of the application process 
for potential applicants. These changes are expected to improve the 
application process and make the RRIF Program a more attractive option 
for eligible entities pursuing infrastructure financing. Prospective 
applicants can view these updated materials on FRA's Web site. Finally, 
FRA is exploring other options for improving the attractiveness of RRIF 
financing, including options for providing assistance to shortline 
railroads for the cost of the credit risk premium.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
                             nextgen delays
    Question. An Office of the Inspector General (OIG) report issued 
just last month identified a number of the underlying causes for 
NextGen delays. The report highlights longstanding programmatic and 
organizational challenges that undermine NextGen's progress, and citing 
the Federal Aviation Administration's (FAA's) initial target completion 
for 2025 at a cost of $40 billion as overly ambitious.
    What is the Department doing to ensure the FAA has an executable 
plan in place that sets realistic expectations and priorities to ensure 
prudent use of taxpayer investments?
    Answer. The FAA's Department is ensuring an executable plan by 
shifting from ground-based radar air traffic management systems to more 
effective satellite-based systems. FAA's Deputy Administrator is also 
the Chief NextGen Officer, and the Assistant Administrator of NextGen 
within FAA is responsible for the day-to-day implementation and 
execution of NextGen activities. Since NextGen implementation relies on 
the coordination of multiple different stakeholders, both of these 
individuals are constantly engaged in discussions with relevant 
parties. As you are aware, the NextGen Advisory Committee prepared and 
submitted a list of NextGen priorities to FAA, and we, along with FAA, 
are reviewing those results and making tough decisions.
    As you also may have noticed, the fiscal year 2015 budget 
restructures Facilities and Equipment account budget line items for 
NextGen to align with the publicly available NextGen Implementation 
Plan (NGIP). We have made this transition to give a clearer line-of-
sight across all NextGen communications and plans, so that stakeholders 
can transparently track funding while also seeing when certain 
capabilities will be deployed and operational.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
    Question. What innovative financing mechanisms has the Department 
considered to encourage private investment in infrastructure projects?
    Answer. The Department continues to promote and use innovative 
financing tools such as the Transportation Infrastructure Finance and 
Innovation Act (TIFIA), Private Activity Bonds (PABs), and the Railroad 
Rehabilitation and Improvement Financing (RRIF) program as a means to 
attract private investment into the Nation's transportation projects. 
Nearly every major transportation public-private partnership (PPP) 
project of the last decade has taken advantage of TIFIA financing. The 
availability of low-cost, long-term, flexible financing provided by the 
TIFIA program has proven to be a major catalyst for leveraging private 
investment in delivering major infrastructure projects. For example, 
the Goethals Bridge Replacement Project, connecting Staten Island with 
New Jersey, was able to attract $106.8 million in up front private 
equity investment at least in part due to the cost savings provided by 
a $473 million TIFIA loan. The President's fiscal year 2015 budget 
requests $1 billion for the TIFIA program, which can provide up to $10 
billion in direct credit assistance and potentially leverage as much as 
$30 billion in infrastructure investment.
    The Department has extensive experience combining Federal credit 
assistance with other sources of funding and financing to complete 
complex infrastructure projects, and has made nearly a dozen loans to 
private entities engaged in public-private partnerships. The PABs 
program has supported a number of PPP projects and leverages 
significant up front private equity, particularly when combined with 
TIFIA credit assistance. PABs allow the Department to allocate 
authority to private entities to issue tax-exempt bonds for eligible 
highway and freight transfer facilities. This helps put private sector 
developers on a level playing field with public sector developers who 
already have access to tax-exempt debt for these facilities. PABs and 
TIFIA credit assistance for the Regional Transportation District's 
(RTD's) Eagle Project in Denver, Colorado leveraged $54.3 million in 
private equity; similarly, $348 million in private equity was leveraged 
for the I-495 Capital Beltway High-Occupancy Toll (HOT) Lanes Project 
in Northern Virginia. As a result of a growing interest in PABs, the 
Department currently anticipates hitting the current $15 billion cap in 
the next 2 to 3 years. The President's fiscal year 2015 budget requests 
lifting the nationwide cap on PABs from $15 billion to $19 billion. The 
Department supports raising the cap to provide longer range certainty 
to project sponsors that private activity bonds will remain a viable 
tool for financing PPPs.
    The RRIF program is a valuable tool for providing Federal credit 
assistance to support the Nation's railroad projects. RRIF is 
authorized to make up to $35 billion in low-cost flexible direct loans 
to public agencies and private railroads for rail infrastructure 
projects. Direct loans can fund up to 100 percent of a railroad project 
with repayment periods of up to 35 years and interest rates equal to 
the cost of borrowing to the Government. RRIF has executed 33 loans 
worth over $1.7 billion, with active loans in 26 States. 72 percent of 
the loans have been provided to the Nation's private class II and class 
III railroads. Looking forward, the Department will continue to explore 
and evaluate potential program changes to encourage more use of RRIF 
loans and to improve the program's application process.
                    railroad highway grade crossings
    Question. Railroad grade crossings continue to be the cause of 
hundreds of injuries and fatalities each year. Oftentimes the 
infrastructure improvements necessary to alleviate the safety risks at 
railroad-highway crossings cost State and local communities millions of 
dollars. What is the Administration doing to help local communities 
address the infrastructure and funding challenges associated with 
improving and maintaining the safety of grade crossings?
    Answer. Currently, Federal funding for improvements at highway-rail 
grade crossings is provided by the section 130 program. Section 130 
refers to section 130 of title 23 of the United States Code, and the 
section 130 program is part of the Highway Safety Improvement Program 
as established in the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU) and carried 
forward in the Moving Ahead for Progress in the 21st Century Act (MAP-
21). A total of $220 million annually is provided to the States for 
this program. The States determine crossings to improve and the type of 
improvements to make. States must make selections on a safety priority 
basis.
    The Federal Railroad Administration (FRA) provides several Web-
based software programs designed to help State and local governments 
evaluate which crossings should be improved. Additionally, FRA has 18 
regional crossing managers who will provide assistance when highway-
rail grade crossings are being selected for improvement. FRA promotes 
the use of additional safety measures such as traffic channelization to 
enhance the effectiveness of the flashing lights and gates at the grade 
crossing.
    In addition, in the fiscal year 2014 appropriations act, Congress 
redirected $41.8 million from a Maglev SAFETEA-LU set aside to rail 
planning, rail technology grants, and Intercity Passenger Rail Grants. 
FRA will solicit project applications for these funds later this year 
and grade crossing improvements will be an eligible activity.
    For fiscal year 2015, FRA has requested $500 million over 4 years 
for a new Local Rail Facilities and Safety grant program. Eligible 
activities include improvements to highway-rail grade crossings, 
relocation of rail lines that run through residential areas, and 
training and technical assistance to help local governments coordinate 
with railroads on operations and safety challenges.
    In general, FRA considers crossing safety when evaluating 
applications for grants and loans that it has available for other 
railroad projects.
                     international aviation safety
    Question. The circumstances surrounding the missing Malaysian 
aircraft raise many questions regarding aviation safety and the safety 
of all our travelers.
    Knowing the Federal Aviation Administration (FAA) cannot be in 
every country at all times, how does FAA work with other countries to 
ensure the safety of their general aviation systems? To what extent 
does the FAA coordinate with other agencies, including the Department 
of Homeland Security and the Department of State to inform Americans, 
business people and tourists, about the level of safety while flying?
    Answer. The FAA works through international organizations, 
international safety assessments, and bilateral agreements to promote 
and improve aviation safety around the world.
    The FAA works on a regular basis with the International Civil 
Aviation Organization (ICAO), the European Aviation Safety Agency 
(EASA), and a number of other international aviation entities, with a 
common goal of furthering aviation safety and identifying any 
significant safety issues that may warrant additional attention by all 
parties.
    FAA's International Aviation Safety Assessment (IASA) Program is a 
key means by which the FAA assesses whether a country's Civil Aviation 
Authority (CAA) is overseeing the safety of aviation activities under 
its authority in accordance with minimum ICAO standards. If assessed, 
the FAA assigns category 1 status when a CAA is found to be overseeing 
the safety of aviation activities in accordance with ICAO standards, 
and a category 2 rating when a CAA is not conducting oversight in 
accordance with ICAO standards. In category 2 status, the FAA freezes 
the operations approved for that country's air carriers operating to 
the United States.
    The category 2 rating also results in the Department of 
Transportation (DOT) deferring action on any request for new or 
expanded economic authority for service to the United States, with 
certain specific exceptions that do not compromise safety.
    The FAA maintains a number of bilateral agreements to facilitate 
reciprocal certification of civil aeronautical products imported/
exported between two signatory countries. A Bilateral Aviation Safety 
Agreement (BASA) with Implementation Procedures for Airworthiness (IPA) 
addresses specific areas such as design approvals, production 
activities, export airworthiness approval, post-design approval 
activities, and technical cooperation. In addition, these agreements 
provide for bilateral cooperation in a variety of aviation areas, 
including safety, maintenance, flight operations, and environmental 
certification.
    Information on specific countries is available to the public 
through the U.S. Department of State (DOS) Web site. IASA information, 
category 1, category 2, or not assessed by the FAA, is contained in the 
specific information sheet for that country.
    The Department of Defense also utilizes IASA information. In 
general, air carriers from states with a category 2 rating are placed 
on its non-use list.
    The FAA does publish information on its public Web site concerning 
safety of flight restrictions, related to specific regions and/or 
States, based on concerns over procedures, airspace restrictions and/or 
prohibitions, as well as potentially unsafe or hazardous situations 
(i.e., Notice to Airmen (NOTAMS), Special Federal Aviation Regulations 
(SFARS)).
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                    nationally significant projects
    Question. Mr. Secretary, as you know, major interstate projects of 
national significance, like I-49 and I-69 in Arkansas, are vital to 
improving north-south connectivity and transportation in the interior 
of our country.
    As we begin to work on the next highway bill, do you commit to work 
with the Arkansas delegation to attempt to identify policies and 
funding mechanisms that would advance these nationally significant 
projects?
    Answer. The Administration recognizes the importance of 
infrastructure projects of national and regional significance, and the 
Department will continue to highlight opportunities available to States 
under current law to advance such projects. In his fiscal year 2015 
budget, the President has proposed $5 billion over 4 years to fund 
these types of projects through a continuation of the Department of 
Transportation's Transportation Infrastructure Generating Economic 
Recovery (TIGER) program. In addition, the budget request proposes a 
new $10 billion multi-modal freight program. These competitive grants 
will be made available to projects identified by States, communities, 
and ports working in collaboration with shippers, truckers, maritime 
providers, railroads, and other transportation stakeholders to identify 
infrastructure projects that serve a public and immediate need to 
improve the safe and efficient movement of freight. In the coming 
weeks, the administration plans to submit to Congress a full 
legislative proposal to reauthorize surface transportation programs. As 
the legislative process continues, the Administration will work closely 
with the Congress to reauthorize these vital programs.
                 united states merchant marine academy
    Question. Were funds appropriated for academics or other non-
security related programs in fiscal year 2014 diverted internally with 
United States Maritime Administration (MARAD) approval to enhance force 
protection efforts at the United States Merchant Marine Academy 
(USMMA); and if so, in what amount?
    Answer. Funding for security enhancements and an enhanced guard 
force were requested and approved through the normal Department of 
Transportation (DOT) budget process for fiscal year 2014. These 
programs address security requirements identified in the DOT Physical 
Security Assessment conducted in July 2012 and are part of an ongoing 
effort started in the fall of 2012 to provide appropriate levels of 
security for the midshipmen, faculty and staff, and visitors.
    Question. Does MARAD's budget submission for USMMA adequately fund 
both (1) new force protection requirements, and (2) academic programs?
    Answer. Yes, sufficient funds are available to conduct the 
Academy's current core requirements.
    Question. If funds were transferred from another program in fiscal 
year 2014, does this budget seek to restore the accounts from which 
funding was transferred; and if not, why not?
    Answer. No funds were transferred or redirected from fiscal year 
2014 programs.
    Question. Mr. Secretary, MARAD's fiscal year 2015 budget request 
does not appear to include funds to renovate or reopen the Melville 
Hall Officer's Club and reception facility at USMMA. Prior to MARAD's 
closure of this facility, it was an extremely important component of 
the USMMA community, providing a venue for midshipmen and alumni to 
host significant events, such as weddings, celebrations, and memorial 
services.
    Does the USMMA's Capital Improvement Program (CIP) include plans to 
reopen Melville Hall?
    Answer. Melville Hall is still open and in use. The catering and 
kitchen operation funded by a Non-Appropriated Fund Instrument (NAFI) 
was terminated on September 30, 2012 following a comprehensive review 
of NAFI activities at the Academy as recommended by the Government 
Accountability Office (GAO) in its 2009 report on Academy operations. 
There were 16 requests to use Melville Hall in 2013, with 4 of those 
requests from the U.S. Merchant Marine Academy Alumni Association and 
Foundation (USMMAAAF). To date, there have been six requests in 2014. 
Additionally, the Academy still uses Melville for its own internal 
functions and activities. Significantly, Melville Hall was the location 
for live nationwide broadcast of ESPN's Salute to Veterans in November 
2013. The current CIP anticipates architectural design and construction 
in fiscal year 2016
    Question. If so, when will the Melville Hall facility reopen and 
how much will it cost?
    Answer. Melville Hall will remain open until renovation 
construction takes place. Current estimates for a potential renovation 
are approximately $4 million.
    Question. What legal obstacles, if any, has MARAD faced in its 
efforts to reopen the Melville Hall facility, and has MARAD sought 
legislative authority to remove legal obstacles that it may have 
encountered?
    Answer. While food preparation and on site lodging have been 
terminated, the facility never closed. MARAD has not faced any legal 
obstacles to reopen Melville Hall.
    Question. Would you please provide a legislative proposal, or (at a 
minimum) a drafting service, that would authorize MARAD to: (1) accept 
non-Federal funds for the renovation and/or operation of the Melville 
Hall facility, and (2) partner with the USMMA Alumni Association and 
Foundation, or other non-Federal entities, to restore operation of this 
important facility?
    Answer. Melville Hall remains in operation, hosting events as 
requested by the USMMAAAF and others. Gift funds could be accepted 
after a potential renovation is completed for margin of excellence 
improvements. The Melville Hall flooring and awning are examples of 
improvements to the building that were funded through gift money.
    Question. Mr. Secretary, I am interested in the status of the Fitch 
Building and where it fits into MARAD's CIP.
    Does MARAD's fiscal year 2015 budget request include funds to 
renovate the Fitch Building at USMMA? If so, for what uses?
    Answer. The Fitch building architectural design and renovation is 
included in the Five-Year Planned Capital Improvement Program. In the 
short term, Fitch has undergone cleaning, painting, carpeting and 
wiring for phones and information technology. The Fitch Building will 
serve as space for faculty offices, classrooms and some staff from the 
Department of Information Technology during the renovations of Samuels 
Hall and other academic facilities.
    Question. Mr. Secretary, I am interested in the status of the 
Academy's affiliated Alumni Association and Foundation which provides 
private fundraising and fraternal support to the Academy.
    Will the Alumni Association and Foundation be returned to Federal 
office space on USMMA, and if so where will it be located and when will 
it occur?
    Answer. At present there are no plans to provide Federal office 
space for the USMMAAAF. Both the USMMA and USMMAAAF had expected that 
private property within the Academy grounds known as the Lerner House, 
which the USMMAAAF purchased in 2009 for several million dollars, would 
have been the USMMAAAF headquarters by now. In the Summer 2010 alumni 
magazine, the president of the USMMAAAF referred to the property as 
``the future home of the Association'' and wrote that the property 
would be ``used as alumni offices, an alumni center, and an Academy 
visitor's center.'' Due to zoning restrictions from the Village of 
Kings Point, the USMMAAAF did not obtain the necessary building permits 
to renovate the Lerner House.
    Early in 2012 officials from DOT, MARAD, USMMA and the USMMAAAF 
traveled together to the United States Military Academy, to explore the 
West Point model, in which the alumni foundation donates the land or 
property to be used as an alumni center to the academy. Our 
understanding from discussions with USMMAAAF officials is that they now 
view the Lerner property as something of a white elephant and that it 
would be cost-prohibitive for them to convert it from residential to 
commercial use.
    Question. If there are obstacles to restoring the Alumni 
Association and Foundation to Federal office space on the campus in the 
near future, please provide a plan for removing or overcoming such 
obstacles.
    Answer. For many years, the USMMAAF occupied Government-provided 
office space in one of the buildings on the Academy's campus without 
paying rent or signing a lease. This was a unique arrangement among the 
service academies. Alumni organizations for other academies generally 
have offices off campus, or in buildings or on land that they have 
donated to their academy.
    In November 2012, the Academy approached the USMMAAAF to ask that 
they find new office space off campus because the Academy space the 
USMMAAF then occupied rent-free was needed during upcoming classroom 
renovations. Given the current budget environment and to avoid concerns 
about preferential treatment, the Academy also asked the USMMAAF to 
enter into a lease and begin paying rent in the interim. During the 
ensuing 5 months, the then-leaders of the USMMAAF declined to pay rent 
or work with the Academy in good faith to find an acceptable 
alternative.
    The USMMAAAF filed suit against the Academy on April 29, 2013 and, 
after a hearing, the U.S. District Court for the Eastern District of 
New York denied the USMMAAAF's motion for a preliminary injunction, 
which would have allowed the USMMAAAF to remain on campus. 
Subsequently, the USMMAAAF vacated its offices and withdrew its lawsuit 
against the Academy.
    The USMMAAAF has chosen to be a public critic of actions of DOT, 
MARAD and the Academy. The USMMAAAF has campaigned to overturn 
decisions made within the Executive Branch on management of the 
Academy, and to lobby Congress to reverse policy and resource 
decisions. While these steps are fully within the rights and 
prerogatives of the USMMAAAF, it would be inappropriate to provide them 
with Federal office space from which to conduct these activities. 
Senior leadership from MARAD and the Academy recently conveyed this 
message to leadership of the USMMAAAF. The USMMAAAF selected a new 
leadership team in September 2013. We have committed to working with 
them to try to find a path forward. The Superintendent has offered to 
meet monthly with the USMMAAAF president to work through these issues.
    Question. Mr. Secretary, I have several questions pertaining to the 
relationship between the USMMA and the Department of the Navy.
    How many active duty and reserve officers have been commissioned 
into the United States Navy and Marine Corps from USMMA since September 
11, 2001?
    Answer. From the class of 2002 to the present, 219 graduates 
received active duty commissions in the U.S. Navy and 68 in the U.S. 
Marine Corps, for a total of 287 active duty commissions. Additionally, 
1,830 graduates received U.S. Navy Reserve commissions.
    Question. How much funding will MARAD receive for USMMA operations 
or capital improvements from the Department of the Navy under the 
administration's fiscal year 2015 budget request?
    Answer. The Academy does not receive funding from the Department of 
the Navy for operations or capital improvements. Active Duty Navy 
Officers in the Naval Science Department and the Marine Corps Liaison 
Officer assigned to the Academy are paid by their respective services 
as they are filling Active Duty training officer billets.
    Question. What is the present funding arrangement between the 
Department of the Navy and MARAD regarding the active duty Navy, 
Strategic Sealift Officer, assigned as a company officer at USMMA; and 
is this program of benefit to USMMA's mission?
    Answer. The Academy has a Memorandum of Understanding with the Navy 
under which the Academy funds the salary and housing allowance for the 
Strategic Sealift Officer assigned as a company officer. The program 
benefits the Academy by providing a recent King's Point graduate with 
current military and industry experience to the Commandant's staff.
    Question. If funding were available, would MARAD seek additional 
active duty Strategic Sealift military officers for similar positions 
as company officers at USMMA?
    Answer. If funding and qualified and interested officers were 
available, the Academy would consider adding mobilized Strategic 
Sealift Officers to the Commandant's staff.
    Question. Mr. Secretary, I have several questions pertaining to 
gifts and bequests to the USMMA. MARAD's fiscal year 2015 budget 
request makes mention of Gifts and Bequests to MARAD and further 
alludes to the fact that many of these donations are for USMMA.
    Would you please describe the process by which money donated to 
MARAD for USMMA is received, processed, and allocated to the Academy?
    Answer. (1) Donors tender gifts to the Academy through the Academy 
Counsel Office.
    (2) All gift checks are secured in the Office of Academy Operations 
and all tangible gifts are secured with the Academy's property 
custodian during the acceptance process.
    (3) Academy Counsel consults with the Superintendent to determine 
if the Academy should process the gift offer.
    (4) If the Superintendent rejects the gift, the check or tangible 
gift is returned to the donor with an explanatory letter.
    (5) If the Superintendent supports the gift, the gift acceptance 
form (1099) is completed by the Academy Counsel, signed by the 
Superintendent and forwarded to MARAD Headquarters for review. At 
MARAD, the Chief Financial Officer (CFO) office and Office of Chief 
Counsel review the gift offer and supporting documentation and 
recommend acceptance or rejection. For tangible gifts, potential future 
costs that would be associated with the item are considered throughout 
the review process.
    (6) Once MARAD completes its review and the gift is accepted, the 
1099 form is signed by the appropriate authorizing officials. If the 
gift is not accepted, a memorandum is prepared explaining the reason 
for the rejection and forwarded to the Superintendent for concurrence.
    (7) The Office of Academy Operations/Assistant Chief Financial 
Officer (ACFO) and the Academy Counsel are both notified of the gift 
acceptance or rejection via e-mail from the MARAD CFO, which includes 
copies of all documentation relevant to the gift (including donor 
intent). This documentation is also maintained on a SharePoint site, to 
which MARAD Counsel and CFO office staff have access.
    (8) Upon notification of gift check acceptance, the Office of 
Academy Operations/ACFO prepares the gift check for deposit. If the 
gift requires a new accounting code which tracks how the funds are 
utilized, one is created. The name of the accounting code reflects the 
donor intent for the gift.
    (9) Prior to formal release of funds to the USMMA from MARAD 
headquarters, Gift funds must be allotted by the DOT CFO per a 
statutory requirement in the annual Appropriations Act. This process 
includes formal sign-off on the allotment advice of funds document by 
the DOT CFO allotting funds to the Maritime Administrator. Once funds 
are allotted, the MARAD CFO then notifies the USMMA that funds are 
available as tangible gifts and funds are posted in the Delphi 
accounting system budget execution module making budget authority 
available for obligation by Academy officials.
    (10) Upon notification of tangible gift acceptance, tangible gifts 
are given an inventory control number and delivered to the appropriate 
Academy department for use or display.
    (11) When a program manager wants to utilize gift funding, they 
obtain the accounting codes from finance and requisition the funds in 
Performance and Registration Information Systems Management (PRISM). 
The Department head approves the use of the gift funds requested. The 
Office of Academy Operations/ACFO certifies fund availability and that 
the use of the funds is in accordance with appropriations law. Once 
funds certification is provided, the requisition is sent to the 
Procurement Department to complete the acquisitions process.
    Question. What is the time line for this process?
    Answer. For gifts accepted during fiscal year 2014 through the end 
of March, we have averaged 7.4 days to process gift acceptance (from 
the date the USMMA receives a complete gift offer to the date of 
acceptance).
    Question. How are restricted funds tracked to ensure they are 
allocated to the appropriate program at USMMA?
    Answer. After gifts have gone through the approval process; 
documentation for a particular gift is forwarded to the Office of 
Academy Operations. This documentation includes:
  --FORM MA-71 Concurrence Record
  --FORM MA-1009 Request for Acceptance of Gift or Payment of Travel
  --Correspondence from Donor
  --Correspondence generated by MARAD headquarters during the approval 
        process
    The Office of Academy Operations is responsible for certification 
of fund availability. The Department where the gift is administratively 
controlled is responsible for ensuring that the funds are being 
utilized according to the donor intent. However, the Office of Academy 
Operations also reviews use of funds during certification of fund 
availability based on the documentation received. Any questions are 
forwarded to the department head in which the gift resides.
    Within the Office of Academy Operations, each gift source has an 
accounting code to identify the purpose of the gift. The Office of 
Academy Operations maintains a file on its shared drive with a list of 
all the accounting codes for gifts with the donor name, code name, and 
date of receipts.
    Question. How are donations made directly to the Academy's 
Superintendent tracked and allocated, and who audits this processes?
    Answer. Donations made directly to the Superintendent follow the 
same process described in an answer above. The review of the process is 
included in MARAD's Internal Control Program which is compliant with 
the Department's and Office of Management and Budget (OMB) Circular No. 
A-123, Management's Responsibility for Internal Control. Additionally, 
the USMMA Gifts and Bequests is identified has a separate assessable 
unit within the MARAD Internal Control Program.
                               fuel taxes
    Question. Mr. Secretary, Congress consistently rejects aviation 
user fees hikes. We already have fuel taxes, and now, once again the 
budget request includes a proposal to impose increased per flight fees 
on commercial and general aviation. I am concerned about how this will 
harm pilots in Arkansas, including pilots of small aircraft, 
agricultural aviation, and many others. Sometimes we encounter the 
perception that pilots can afford these fees, but often that is not the 
case. Instead, we should make flying easier for people of limited 
means. The administration's user fee would raise $725 million next 
year. That's a lot of money.
    What will the administration do with such a large infusion of new 
funding?
    Answer. According to Treasury Department estimates, the proposed 
air traffic service fee would generate approximately $8.5 billion in 
additional revenue over the next 10 years. The surcharge for air 
traffic services is being proposed to more equitably share the cost of 
air traffic services across the aviation user community and to reduce 
the deficit. The Federal Aviation Administration (FAA) recognizes the 
critical role aviation plays in supporting jobs and generating 
significant economic activity for the country and looks forward to 
working with Congress and aviation stakeholders on studying the funding 
issue as part of the upcoming reauthorization.
    Question. If you raise fees, would you consider reducing fuel 
taxes?
    Answer. The President's fiscal year 2015 budget does not propose 
changing aviation fuel taxes. FAA looks forward to working with 
Congress and aviation stakeholders on funding the FAA. There is an 
opportunity to study funding options during the period before FAA's 
current authorization expires at the end of September 2015.
                         agricultural aviation
    Question. Previous user fee proposals have included numerous 
exemptions. Does the administration support carving out an explicit 
exemption for agricultural aviation, which can involve dozens of 
flights over the course of a single working day?
    Answer. This proposal would create a per flight fee for aviation 
operators who fly in controlled airspace. However, there are 
exceptions; aircraft conducting aerial application activities and those 
that fly outside of controlled airspace would not be subject to the 
flight surcharge fee. The proposal would also exempt military aircraft, 
public aircraft, piston aircraft, air ambulances, and Canada-to-Canada 
flights.
       making flying easier for people of limited financial means
    Question. What proposals does the Administration support to make 
flying easier for people of limited financial means?
    Answer. The FAA operates and regulates the safest and most 
efficient airspace system by global standards. Apart from providing 
safety oversight and air traffic control services, it provides 
financial assistance to airports, all of which benefit our aviation 
stakeholders. FAA does not directly regulate rates or services of 
airlines or general aviation.
                commercial and general aviation airports
    Question. Mr. Secretary, the budget request includes a significant 
cut to the Airport Improvement Program (AIP). This is a concern, but I 
am pleased that the AIP program would direct grants to smaller 
commercial and general aviation (GA) airports that really form the 
backbone of our nationwide system.
    How will support for GA and small commercial airports in the fiscal 
year 2015 proposal compare to current funding levels?
    Answer. While the fiscal year 2015 budget proposal reflects a 
smaller funding amount for the overall Airport Improvement Program, 
when compared to current funding levels, the proposal is intended to 
better focus that investment on the highest priority improvements 
throughout the system. The budget proposes to lower AIP by eliminating 
passenger and cargo entitlement funding for large hub airports. In 
return, Passenger Facility Charges (PFCs) would be increased for all 
airports from $4.50 to $8. This means that a larger share of the 
remaining AIP grant funds will be allocated to smaller airports. By 
providing more focused investments at smaller airports, we can continue 
to ensure that the most critical safety and capacity needs of the 
national airport system are met. We remain committed to supporting the 
needs of smaller airports through the AIP and the fundamental structure 
proposed under the fiscal year 2015 budget proposal continues to 
reinforce that support.
    Question. Would general aviation airports receive more AIP funding 
under the President's proposal?
    Answer. It is possible that general aviation airports could receive 
more in AIP funding under the President's fiscal year 2015 budget 
proposal. The amount of AIP discretionary funding available would 
increase under the proposal, which would provide more opportunity for 
all small airports, including general aviation airports, to secure AIP 
funding.
    Based on the average over the last 5 years, general aviation 
airports have received approximately 18 percent of the available AIP 
funding through entitlement and discretionary grants. Using this 
average, the FAA estimates that general aviation airports will receive 
approximately $606 million of the $3.2 billion in AIP grant funding 
available for entitlement and discretionary grants in fiscal year 2014.
    Under the fiscal year 2015 budget proposal, general aviation 
airports will have $601 million (22 percent) in formula funds available 
to them from the $2.7 billion in total AIP grant funding. While we 
cannot project the amount of discretionary funds that general aviation 
airports would receive in fiscal year 2015, it is reasonable that 
general aviation airports would receive a sufficient amount of 
discretionary funding to keep the overall funding level for the 
category comparable to previous years.
    The programmatic changes recommended in the fiscal year 2015 budget 
would increase the amount of the small airport fund and discretionary 
dollars available to small airports, which includes general aviation 
airports. Small airports would also have access to a larger pool of 
fiscal year 2015 discretionary funding. That is because, under current 
law, if the total AIP program drops below $3.2 billion, entitlements 
are reduced and the amount of discretionary funding available 
increases. Therefore, it is possible for general aviation airports, or 
other individual categories of small airports, to receive more funding 
under the proposal.
    aircraft part certification reforms and efficiency improvements
    Question. Mr. Secretary, in Arkansas, we are proud to be the home 
of a significant aviation and aerospace industry. Companies like 
Dassault-Falcon are creating great products with a high-skills 
workforce. Aviation products are a tremendous U.S. export, and we need 
to be globally competitive. That means we must reform and make our 
certification and regulatory process more efficient, so that our 
manufacturers can compete on a level playing field.
    Are aircraft part certification reforms and efficiency improvements 
a priority for you, and what steps are the Department and FAA taking to 
achieve these critical reforms?
    Answer. Improving the effectiveness and efficiency of the aircraft 
certification process is a key focus area for the FAA. The aircraft 
certification process must be effective in order to ensure the 
continued safety of the U.S. civil aircraft fleet. To accomplish this, 
the FAA is using risk-based decisionmaking for oversight of aircraft 
design and manufacturing while still being flexible to allow insertions 
of new technologies and efficiencies that meet the needs of industry 
stakeholders.
    Section 312 of the FAA Modernization and Reform Act of 2012 
identified six areas for assessment and improvement. The FAA developed 
an implementation plan consisting of 14 initiatives to address the six 
areas. The FAA posts semiannual updates to the section 312 
implementation plan on its Web site which include the status of the 
reform initiatives. One of the initiatives seeks to improve the process 
and timeliness to initiate certification projects. The FAA developed 
the new process based on industry comments that better balances 
industry needs with FAA priorities and resources.
    The FAA is also implementing initiatives that streamline our 
certification and oversight regulations and policies. With these 
improvements, we are promoting a risk-based approach to how, where, and 
when we use our resources. We are directing our oversight to those 
points with the greatest risk, as opposed to using a one-size-fits-all 
approach. Additionally, we are strengthening our international 
partnerships to encourage the seamless and efficient transfer of 
products and approvals across borders through shared safety initiatives 
and policy improvements.
    The FAA continues revising regulations for certification and 
production of general aviation aircraft that should allow industry to 
more readily introduce new safety technologies and remain competitive 
within the aviation industry. For instance, the FAA is proceeding with 
rulemaking for the complete reorganization of part 23 for general 
aviation. Overall, the initiatives balance risk and safety requirements 
to focus resources in a manner consistent with the public's 
expectations. The agency is working to tailor certification 
requirements based on the performance, complexity, and usage of the 
aircraft. This activity is directed at achieving the next level of 
safety while improving efficiency and reducing cost.
                         nextgen program status
    Question. Would you please provide me your perspective on the 
status of the NextGen program?
    Answer. NextGen is complex deployment of new systems, technologies 
and procedures to achieve additional operational capabilities, but it 
must be done while also simultaneously managing the safest, yet most 
complex airspace in the world. Implementing NextGen is like changing a 
tire on a vehicle while still being in highly congested traffic and 
traveling at highway speeds.
    NextGen was envisioned to be implemented in segments. Segment 
Alpha, which will be complete at the end of 2015, builds the foundation 
for other programs to leverage when adding future capabilities. Segment 
Bravo, which is from 2016-2020, adds to that foundation and delivers 
some of the more substantial transformation to the National Airspace 
System (NAS).
    Below are some of the programs and their statuses.
    Automatic Dependent Surveillance-Broadcast.--Automatic Dependent 
Surveillance-Broadcast (ADS-B) utilizes GPS technology to determine and 
share precise information on an aircraft's location, and streams 
additional flight information to aircraft cockpits that have the proper 
avionics equipment. Aircraft are required to be equipped for ADS-B 
signal transmission out of the aircraft by January 1, 2020, as detailed 
in FAA Advisory Circular 90114. In 2014, the FAA completed the 
deployment of ground radio infrastructure and deployment of National 
Airspace System (NAS)-wide Pilot Advisory Services. To ensure that 
equipped aircraft get the anticipated benefits on or before January 
2020, FAA still needs to complete the integration of ADS-B into all its 
terminal separation automation.
    Data Communications.--Data communications (DataComm) provides data 
communications between Air Traffic Control (ATC) facilities and 
aircraft and will allow for more efficient strategic management of the 
airspace while enabling the FAA to meet the growing demand for air 
travel. The messages being sent from DataComm will allow controllers to 
send routine instructions, such as revised departure clearances, via 
electronic messages directly to pilots. This timely communication will 
reduce frequency congestion and the potential for voice read-back 
errors.
    NAS Voice System.--Today, 17 different voice switches are used in 
the NAS and many are already experiencing severe obsolescence issues. 
The NAS Voice System (NVS) will replace the current inventory of 
switches with a nationwide network to standardize the voice 
communication infrastructure among air traffic facilities. NVS is 
designed to use Voice over Internet Protocol (VoIP) technology. NVS 
will provide the flexibility to reroute voice communications to 
controllers in different facilities during busy periods or service 
interruptions. The FAA will complete the initial demonstrations of NVS 
and achieve final investment decision in 2014.
    System Wide Information Management.--System Wide Information 
Management (SWIM) is the digital data-sharing backbone of NextGen. SWIM 
develops and implements the standards, infrastructure, and governance 
that enable the management of Air Traffic Management (ATM)-related 
information and its exchange between qualified parties via 
interoperable services. SWIM has been distributing weather and flight 
planning information to NAS users, mainly airline operations centers, 
since 2010 and will continue to develop and add services. In 2014, the 
FAA will complete implementation of the Terminal Data Distribution 
System to support user preference for surface data sharing and will 
achieve the final investment decision for the next segment of SWIM.
                            contract towers
    Question. Mr. Secretary, contract towers provide vital safety 
enhancements at several airports in Arkansas. Does the fiscal year 2015 
budget request support continued operation of the contract tower 
program at current levels?
    Answer. Yes. The fiscal year 2015 budget request supports continued 
operation of the 252 Federal Aviation Administration Contract Towers.
    Question. Do you believe that the contract tower program enhances 
safety and provides value to our airports and communities?
    Answer. The Department of Transportation Inspector General's 2012 
audit of the Federal Aviation Administration Contract Tower (FCT) 
Program and subsequent report validated the cost effectiveness, safety, 
and user satisfaction. The findings reflected that contract towers 
provide services that are comparable to those provided at FAA staffed 
towers, with little difference in safety or quality.
    Given a flat or declining budget and the cost of maintaining FAA's 
services and facilities that are part of the NAS, focusing on building 
the NAS of the future is a challenge. Building a more efficient NAS of 
the future will require difficult decisions for redefining services and 
rebalancing resources to align with future air traffic demands.
                           business aviation
    Question. Mr. Secretary, I remain concerned about political 
rhetoric that castigates business aviation and general aviation to 
score cheap political points.
    Do you believe that business aviation is essential to economic 
strength and job opportunities in our country, and do you believe that 
it should not be unfairly targeted as an activity deserving disparate 
treatment under Federal law?
    Answer. The department recognizes the role business aviation plays 
in the Nation's air transportation system. Business aviation provides 
benefits for companies and communities, supports jobs, and generates 
significant economic activity.
    The administration has a goal to improve the Nation's 
transportation infrastructure and this investment will benefit the 
general aviation community. The U.S. Department of Transportation and 
the Federal Aviation Administration continue to invest in and improve 
general aviation and the airports that serve general aviation through 
ongoing initiatives including grants to eligible airports through the 
Airport Improvement Program, safety and technical enhancements, and 
improving access to data.

                          SUBCOMMITTEE RECESS

    Senator Murray. And this hearing is now adjourned until 
Wednesday, April 2, at 10 a.m. We will hold a hearing on HUD's 
budget request.
    [Whereupon, at 11:23 a.m., Thursday, March 13, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 2.]
</pre></body></html>
